<html>
<title> - STAKEHOLDER PERSPECTIVES ON PRIORITIES FOR THE QUADRENNIAL HOMELAND SECURITY REVIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




  STAKEHOLDER PERSPECTIVES ON PRIORITIES FOR THE QUADRENNIAL HOMELAND
  
                            SECURITY REVIEW
=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT
                       
                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                       
                       HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2014

                               __________

                           Serial No. 113-72

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               

                                  
                         U.S. GOVERNMENT PRINTING OFFICE 

90-882 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana, Vice Chair    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
               Ryan Consaul, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director
           
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency............................     1
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Stewart A. Baker, Former Assistant Secretary for Policy, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Frank J. Cilluffo, Associate Vice President and Director, 
  Homeland Security Policy Institute, The George Washington 
  University:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Henry H. Willis, Director, Rand Homeland Security and Defense 
  Center, The Rand Corporation:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Ms. Elaine C. Duke, Former Under Secretary for Management, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                                Appendix

Questions From Chairman Jeff Duncan for Stewart A. Baker.........    41
Questions From Ranking Member Bennie G. Thompson for Stewart A.
  Baker..........................................................    41
Questions From Chairman Jeff Duncan for Frank J. Cilluffo........    42
Questions From Ranking Member Bennie G. Thompson for Frank J. 
  Cilluffo.......................................................    42
Questions From Chairman Jeff Duncan for Henry H. Willis..........    43
Questions From Ranking Member Bennie G. Thompson for Henry H. 
  Willis.........................................................    43
Questions From Honorable Jeff Duncan for Elaine C. Duke..........    44
Questions From Ranking Member Bennie G. Thompson for Elaine C. 
  Duke...........................................................    45

 
  STAKEHOLDER PERSPECTIVES ON PRIORITIES FOR THE QUADRENNIAL HOMELAND 
                            SECURITY REVIEW

                              ----------                              


                         Friday, June 20, 2014

             U.S. House of Representatives,
          Subcommittee on Oversight and Management 
                                        Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Hudson, Barber, and Payne.
    Mr. Duncan. The Committee on Homeland Security Subcommittee 
on Oversight and Management Efficiency will come to order. The 
purpose of this hearing today is to receive testimony from 
National security stakeholders on their recommendations for the 
Department of Homeland Security's Quadrennial Homeland Security 
Review. I now recognize myself for an opening statement.
    Our homeland security faces a significant test. From the 
influx of illegal aliens, including 60,000 unaccompanied 
children over the last year--and what we see going on even 
today in the Southwest is alarming--to terrorist threats from 
Syrian foreign fighters and al-Qaeda-affiliated groups wreaking 
havoc on the Middle East, and the continued cyber attacks by 
China and others, this administration has failed to provide a 
comprehensive strategic vision to secure our Nation.
    Mandated by the 9/11 Commission Act of 2007, the Department 
of Homeland Security, or DHS, is required to conduct a 
Quadrennial Homeland Security Review, or QHSR, every 4 years.
    The purpose of the QHSR is for DHS to assess the state of 
our Nation's homeland security and determine what steps, if 
any, are needed to shift, or enhance, our strategic focus. The 
QHSR is meant to outline DHS's mission, and the Department's 
vision and strategy to effectively implement its mission. While 
the report was released only hours before this hearing, it was 
due no later than December 31, 2013. As a result, it is 6 
months late. Although I understand part of the delay was due to 
the need for Secretary Johnson to review the report, we need a 
cohesive strategy to combat the threats that we face.
    Until we have a focused, achievable, and affordable 
strategy that addresses these threats, this administration is 
failing its duty to lead. Because of the lengthy delay, this 
Quadrennial Homeland Security Review was also unable to guide 
the President's fiscal year 2015 budget request. With our 
country over $17 trillion in debt, and almost $18 trillion 
today, it is imperative that we make wise and well-informed 
decisions when it comes to the budget. Unfortunately, without 
the timely issuance of the QHSR, DHS lacked the strategy 
necessary to help prioritize and spend taxpayer dollars wisely.
    In November 2013, the committee sent a letter to Acting 
Secretary Beers recommending that the QHSR focus on areas such 
as border security, cybersecurity, terrorist threats, 
preparedness, transportation security, and management 
effectiveness. While the QHSR mentions most of these areas of 
interest, it does not address these threats posed by other 
nation-states such as Iran, China, and Russia. This is a major 
omission for a document intended to guide how we secure the 
homeland. Its failure to mention Departmental management is 
also a major weakness.
    Year after year, DHS is ranked at or near the bottom of 
Federal agencies in many public-sector agency performance 
rankings. For this Department to be efficient and effective, 
proper management must be a priority. Highlighting climate 
change as a homeland security issue and not nation-state 
threats--as I mentioned earlier, Iran, China, Russia--or the 
management of the Department makes no sense and it raises 
questions about the usefulness of this strategy--climate 
change. However, most concerning in reviewing the QHSR is that 
there seems to be a lack of aligning resources with strategic 
priorities.
    In the 9/11 Commission Act, it requires DHS to identify the 
budget plan required to provide sufficient resources to 
successfully execute the full range of missions called for in 
the National homeland security strategy. While the QHSR briefly 
mentions budget drivers in general, it does not link specific 
mission areas to the actual budget. The Government 
Accountability Office reported, after the release of the first 
QHSR, that there was a lack of input from 9 Federal 
stakeholders. For this document to be truly effective there 
must be interagency, State, local, and private-sector 
consultation.
    In viewing the list of stakeholder participation, it seems 
DHS increased their stakeholder outreach. But it also notes 
direct engagement with the Executive Office of the President. 
DHS's strategy should be objective and fact-based, and I 
sincerely hope that there was no political influence in the 
development of this document. The production of this report 
should not solely be a box-checking exercise for the 
Department. The Nation desperately needs a strategic vision to 
secure our homeland. Time will tell if this document meets that 
need. I look forward to hearing the testimony from our 
stakeholders and hearing their perspectives on the latest QHSR.
    With that, I will now recognize the Ranking Minority Member 
of the subcommittee, the gentleman from Arizona, my friend, Mr. 
Barber, for any statement he may have.
    Mr. Barber. Thank you, Mr. Chairman and thank you to the 
witnesses for being with us today.
    The purpose of the Quadrennial Homeland Security Review, or 
QHSR, is to conduct a comprehensive assessment that outlines 
the long-term risk, strategy, and priorities for homeland 
security across our Nation.
    Unfortunately, as the Chairman pointed out, the Department 
did not release its report until yesterday, despite the 
statutory mandate that it be delivered no later than December 
31, 2013. I am very disappointed that it was released late. It 
makes it hard to conduct a meaningful hearing with so short a 
time to study the review. But I am pleased that the report is 
finally in our hands, and that it includes specific strategic 
priorities for the Department for the next 4 years.
    It is now encumbent upon the Department, in coordination 
with its Federal, State, and local partners and other 
stakeholders, to carry out these strategies in an effort to 
keep our country secure. And, I might add, to make sure that we 
have a way of tracking progress, which has been sorely lacking 
in the Department in so many areas.
    For the QHSR to be truly effective, a truly effective 
guide--one that ensures that all Department components are 
working towards the same goals--it is absolutely critical that 
the strategies the Department has put on paper in the QHSR 
actually become programs, policies, and budget requirements.
    Although the Department is required by law to be included, 
missing from the QHSR is an assessment of the organizational 
alignment of the Department with a National homeland security 
strategy, including the Department's organizational structure, 
management systems, budget and accounting systems, human 
resource systems, procurement systems, and a physical and 
technical infrastructure. These missing elements make it 
difficult to determine whether the Department has the required 
capabilities to achieve the goals established in the QHSR and 
its ability to link its policies to planning, budget, and 
execution.
    It is also essential that the Department do more to engage 
stakeholders. I represent 1 of 9 Southwest Border districts. 
The people who live and work, have businesses, go to school 
along that border should have a right to have a say in how the 
Department develops its strategies and carries them out. I 
still--I am waiting to see an active and robust effort to 
engage those stakeholders. I would add, the personnel, the 
boots on the ground have to have their voice to make sure that 
they are helping to form strategies and priorities for the 
future.
    It is a sad commentary--and the Chairman also pointed this 
out--that when there is a review, National review, of all 
Federal agencies, DHS has consistently fallen very low. In 
fact, typically 19 out of 19 agencies studied. Then when you 
look inside the Department, within the Department that--looking 
at morale of employees, the CBP--Customs and Border Protection 
ranks lowest of all the employees of the Department. These must 
be addressed, these issues must be addressed, and should become 
a priority for the Department going forward. Morale is 
essential to effective personnel activities.
    The Chairman and I recently co-sponsored H.R. 4228, the DHS 
Acquisition, Accountability, and Efficiency Act, which passed 
the House earlier this morning. This bipartisan bill will, I 
believe, bring transparency, accountability, and consistency to 
the Department's acquisition processes, which have been sorely 
lacking.
    We have had some outrageous examples of how acquisitions 
have gone wrong. The effective and efficient acquisition of 
technology goods and services will be vital in the Department's 
ability to implement the strategic approaches defined in the 
QHSR.
    As Ranking Member of the Oversight and Management 
Efficiency Subcommittee, I will be joining with my colleagues 
on both sides of the aisle in monitoring the Department's 
implementation of the strategic priorities laid out in the QHSR 
to ultimately determine its worth. Improving the importance of 
DHS programs, activities, and initiatives is clearly a 
bipartisan process, a bipartisan priority. This committee has 
shown that time and time again.
    But while the Department is not here today to address our 
specific questions, I do appreciate the willingness of these 
very important stakeholders and former Department employees to 
testify today. Their insights into the QHSR and the 
Department's plan forward should serve as a valuable 
contribution to our oversight, and I look forward to hearing 
from each of you.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The statement of Ranking Member Barber follows:]
                 Statement of Ranking Member Ron Barber
                             June 20, 2014
    The purpose of the Quadrennial Homeland Security Review, or QHSR, 
is to conduct a comprehensive assessment that outlines the long-term 
risks, strategy, and priorities for homeland security across the 
Nation.
    Unfortunately, the Department did not release the QHSR until 
yesterday; despite the statutory mandate that it be delivered no later 
than December 31, 2013. While I am disappointed it was released late, I 
am pleased to see that the report includes very specific strategic 
priorities for the Department for the next 4 years.
    It is now incumbent upon the Department, in coordination with its 
Federal, State, and local partners and other stakeholders, to carry out 
these strategies in an effort to keep our country secure. For the QHSR 
to be a truly effective guide, one that ensures all Department 
components are working toward the same goals, it is critical that the 
strategies the Department has put on paper in the QHSR actually become 
programs, policies, and budget requirements.
    Although required by law to be included, missing from the QHSR is 
an assessment of the organizational alignment of the Department with 
the National homeland security strategy, including the Department's 
organizational structure, management systems, budget and accounting 
systems, human resources systems, procurement systems, and physical and 
technical infrastructure.
    These missing elements make it difficult to determine whether the 
Department has the required capabilities to achieve the goals 
established in the QHSR and its ability to link its policies to 
planning, budget, and execution.
    The Chairman and I recently co-sponsored H.R. 4228, the DHS 
Acquisition Accountability and Efficiency Act, which passed the House 
earlier this month. This bipartisan bill will bring transparency, 
accountability, and consistency to the Department's acquisitions 
process. The effective and efficient acquisition of technology, goods, 
and services will be vital in the Department's ability to implement the 
strategic approaches defined in the QHSR.
    As Ranking Member of the Oversight and Management Efficiency 
Subcommittee, I look forward to monitoring the Department's 
implementation of the strategic priorities laid out in the QHSR to 
ultimately determine its worth.
    While the Department is not here today to address our specific 
questions, I do appreciate the willingness of these very important 
stakeholders and former Department employees to testify today.
    Their insight into the QHSR and the Department's plan forward 
should serve as a valuable contribution to our oversight. I look 
forward to hearing from each of you.

    Mr. Duncan. I thank the gentleman from Arizona. Other 
Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 20, 2014
    Pursuant to the Implementing the Recommendations of the 9/11 
Commission Act of 2007, every 4 years, the Department of Homeland 
Security (Department) must outline its long-term strategy and 
priorities for homeland security in the form of a Quadrennial Homeland 
Security Review, or QHSR, which was to be submitted to Congress in 
December 2009, and every 4 years thereafter.
    This is a model that has proven to be helpful for the Department of 
Defense and it was anticipated that the Department, and the Nation as a 
whole, would equally benefit from the Department of Homeland Security's 
effort.
    The first QHSR was not timely received and did not satisfy the 
requirements set forth in the statute defining what it must contain. It 
did, however, serve as a framework for the second QHSR, which should 
have been submitted to Congress by December 31, 2013.
    Unfortunately, once again, the report was late. The first QHSR was 
submitted almost 2 months past the statutory deadline; this latest 
version is almost 6 months overdue.
    I appreciate the need for the Department to align the QHSR with the 
President's budget request, which is released in March and that the 
transition in Departmental leadership also impacted the time line, but, 
the Department must do better.
    Moreover, one of the fundamental purposes of the QHSR is to inform 
the budget and as a result the budget should align with the priorities 
set forth in the document. Building on this foundation as well, are the 
programs and policies that are implemented, which should also align 
with the strategies laid out in the QHSR.
    For example, although I appreciate the Department's emphasis on 
improving our biosurveillance capabilities, it is unclear whether and 
how its strategy will align with Federal efforts coordinated by the 
White House.
    The administration released the National Strategy for 
Biosurveillance in July 2012, and an implementation plan was due 120 
days later. To date, the implementation plan has not been released, and 
the Department has not been able to tell the committee when the 
implementation plan will be released or what its role will be.
    Accordingly, I will be interested in learning more about the degree 
to which portions of the QHSR related to biosurveillance were written 
in coordination with the implementation plan for the National Strategy 
for Biosurveillance and whether and how the Department's role will 
change when that document is ultimately released.
    Likewise, there is an entire section devoted to immigration. Yet, 
unless and until we pass Comprehensive Immigration Reform, our system 
will remain broken. I look forward to monitoring how the Department 
will carry out these and other priorities set forth in the document.
    Furthermore, the QHSR process does not and should exist in a 
vacuum. The homeland security enterprise consists of Federal, State, 
local, and Tribal partners, in addition to the private sector.
    I therefore look forward to hearing from the stakeholders present 
at today's hearing to ascertain how those outside of Government were 
included in the process and to obtain their perspective on what the 
Department has identified as our Nation's priorities over the next 4 
years.

    Mr. Duncan. We are pleased to have a distinguished panel of 
witnesses before us today on this topic. Let me remind the 
witnesses that their entire written statement will appear in 
the record. I will introduce each of you first, and then 
recognize you individually for your testimony.
    Our first witness today it Mr. Stewart Baker. He is a 
partner in the law office of Steptoe & Johnson in Washington, 
DC. Mr. Baker formerly served as the first assistant secretary 
for policy at the Department of Homeland Security. In this 
role, Mr. Baker led a staff of 250 people and was responsible 
for Department-wide policy analysis as well as the Department's 
international affairs strategic planning and relationships with 
law enforcement and public advisory committees.
    The second witness, Mr. Frank Cilluffo is an assistant vice 
president at the George Washington University, where he is the 
director of the Homeland Security Policy Institute. The 
institute is a non-partisan think tank that focuses on 
counterterrorism and counter-radicalization efforts, cyber 
threats and deterrence in the nexus between crime and 
terrorism. He also joined the faculty at George Washington 
University in 2003 from the White House, where he served as 
special assistant to the President for homeland security.
    Dr. Henry Willis is the director of the Rand Homeland 
Security and Defense Center, and a professor at the Pardee Rand 
Graduate School. Dr. Willis has applied risk analysis tools to 
resource allocation and risk-management decisions in the area 
of public health and emergency preparedness, homeland and 
National security policy, energy and environmental policy, and 
transportation planning. Dr. Willis' recent research involved 
assessing the cost and benefits of terrorism security measures 
like the Western Hemisphere Travel Initiative and evaluating 
the impact of public health emergency preparedness grant 
programs.
    The Honorable Elaine Duke is the former under secretary for 
management at the Department of Homeland Security, a position 
she held from 2008 until 2010. As the under secretary, she was 
responsible for the management of the Department's $47 billion 
budget, acted as the Department's chief acquisition officer, 
and led DHS's $17 billion acquisition program. Prior to her 
appointment as under secretary, Ms. Duke served in a number of 
positions at the Department, including deputy under secretary 
for management, chief procurement officer, deputy assistant 
administrator of acquisitions at the Transportation Security 
Administration.
    So I thank all of you for being here today. I look forward 
to delving into this topic.
    I will now recognize Mr. Baker for your testimony, 5 
minutes.

 STATEMENT OF STEWART A. BAKER, FORMER ASSISTANT SECRETARY FOR 
          POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Baker. Thank you, Chairman Duncan and Ranking Member 
Barber. It is really a pleasure to be here. I vividly remember 
launching the first QHSR in the waning days of the Bush 
administration with a meeting that included outside 
stakeholders, such as Randy Beers when he was in private life.
    Effective management of the Department, achieving its 
goals, protecting us from terrorism and the other goals that 
have been set here is not a partisan exercise. Everyone wants 
the Department to be well-managed and effective in achieving 
its goals.
    So I am pleased to talk about the second QHSR. There are 
several things that I think are praiseworthy about it. It 
clearly is now an institutionalized part of the Department's 
planning, and that is important. The QDR has been a valuable 
planning and management tool for the Defense Department, and 
the QHSR, if it continues to improve, can be the same for the 
Department of Homeland Security.
    It stresses, the second report, the continuity of the 
objectives that the Department has. They have not significantly 
changed at the top level. I do not think they would 
significantly change under a different party or a different 
President. These are the goals that DHS is set up to achieve.
    In addition, I would say that this report is better than 
the last. It is, in particular, a very thoughtful addressing of 
the challenges of terrorism, particularly nuclear, biological, 
and deserves to be praised for looking hard and making some 
difficult choices with respect to how to carry out the 
counterterrorism mission.
    That said, there are certainly areas where significant 
improvement is required. It is always a temptation in producing 
reports, particularly reports that have been required by 
Congress, to move from looking out the windshield and using 
this tool to guide the Department to just looking in the review 
mirror and telling us what you see behind the Department.
    That is easier because it is really--it is more of a speech 
than a decision-making process. There are elements of 
speechifying in this QHSR. If you look at the QDR and the 
Secretary's letter, the first sentence talks about the tough 
choices that the QDR makes. I don't see as many tough choices 
being made in this QHSR. It is a little bit more a description 
of a strategy. Until that strategy actually bites and produces 
tough budget decisions, it is not easy to say that it is really 
a strategy. I think more needs to be done in translating the 
QHSR into actual budget decisions.
    There is also, frankly, a temptation on the part of other 
agencies or other stakeholders to say, well, if you are writing 
a speech be sure to name-check me. Or maybe I would like to 
have a turf fight. Since you have to get this out, I will hold 
it up until you give me some turf concessions. There is some 
reason to believe that this may have happened with the 
Department of Justice demanding name checks for all of its 
roles in areas where its legislative or statutory authority is 
a little dubious. That is unfortunate; the idea that a DHS 
strategy would be held hostage by other agencies strikes me as 
inappropriate.
    More specifically, I would say the things that I found 
disappointing about the content of the report--I thought the 
cyber discussion was only adequate, not particularly strategic. 
The advertisement for immigration reform, we understand that 
that is a legislative proposal that the administration feels 
very strongly about. But we don't know whether it will pass, 
and it is hard to plan for something that has such a 
questionable future on the Hill. Introducing it into the QHSR 
is open to some question, particularly because I don't think 
the report acknowledges just how tough a management challenge 
that will be. It will be an enormous management challenge.
    The Department should be planning for that challenge 
because of the possibility that we will get significant 
reforms. I did not see as much discussion of that challenge as 
was appropriate. Finally, I could not agree more with the 
remarks of both Congressmen about the deleterious effects of 
delay here. That makes it hard for this to have an impact. If 
it doesn't have an impact it is just a speech. It needs, the 
Department needs, more centralized management for sure.
    This could be an enormously valuable tool as part of a 
strengthening of overall management. I would certainly support 
anything that achieved that goal.
    [The prepared statement of Mr. Baker follows:]
                 Prepared Statement of Stewart A. Baker
                             June 20, 2014
    Chairman Duncan, Ranking Member Barber, Members of the 
subcommittee, I am honored to testify before you today about the 
Department of Homeland Security's Quadrennial Homeland Security Review 
(QHSR). During my time as assistant secretary for policy at DHS, I was 
involved in launching the QHSR, as well as what was then known as the 
Office of Strategic Plans. As you can imagine I am a strong supporter 
of coordinated strategic planning in general, and of the QHSR in 
particular.
    Our goal in starting the QHSR was to create a mechanism for the 
Secretary to articulate a unified set of strategies and priorities for 
protecting U.S. homeland security. We believed that by forcing 
ourselves to think strategically about the range of threats to the 
Nation and the tools available to the Department, we could create a 
unified set of priorities that could guide the components of the 
Department without the need for constant personal attention from the 
Secretary and Deputy Secretary. We also hoped that doing so would make 
for a better budget process, one in which some of the goals and trade-
offs had already been clarified, so that budgeting was a matter of 
matching limited resources to an agreed set of priorities. We hoped, in 
short, that some of the hard choices then driven by annual budget 
exercises could be made with a longer perspective across all parts of 
the Department.
    Since its inception, DHS has suffered from a lack of unity between 
its components. In many ways this is unsurprising. As you all know, the 
Department was created from the combination of several different 
entities, most of which brought with them a fully formed set of ideas 
about how to best go about protecting the Nation. Reconciling these 
diverse missions into something resembling a coherent set of policy 
goals was always going to be a challenge, even under the best of 
circumstances. The Department has benefited tremendously over the years 
from strong leadership, and when the Secretary brought personal focus 
to the task, the Department responded with unity and focus. But without 
that personal involvement it has been hard to maintain mission unity 
among the Department's components.
    Unity has only grown more important in an era of evolving threats. 
The original impetus for creating DHS was to better coordinate the 
various entities responsible for protecting the Nation against 
terrorism. In certain ways this reorganization has been tremendously 
successful. America's enemies have been unable to replicate the 
destruction of 9/11 within the United States, and DHS deserves great 
credit for the role it has played in thwarting many post-9/11 plots. 
But terrorism today is a more dynamic threat than it was 10 or 15 years 
ago. The advances in communications technology since 2001 alone have 
fundamentally altered the ability of terrorists to recruit, both inside 
and outside of the United States, as well as to coordinate attacks. 
This is not to mention, of course, the many other threats beyond 
terrorism that the Department must guard against. Some of these threats 
are new or evolving. For instance, our increasing reliance on network 
technology has made us more vulnerable to cyber attacks. A hacker can 
today cause a level of damage from his living room that would have been 
inconceivable as recently as 10 years ago. Others are as old as the 
planet, as Hurricane Katrina reminded us nearly 10 years ago.
    The QHSR is thus a mechanism for DHS to think carefully about the 
full range of threats it faces, and to prioritize them accordingly. In 
a world of unlimited resources this would be less important. But that 
is not the world we live in. We have settled into an extended period of 
austerity for the Department, and cuts to its budget remain a real 
possibility in the immediate future. Given that DHS cannot treat every 
threat equally, it is therefore even more imperative that the Secretary 
be able to prioritize threats and coordinate the Department's resources 
accordingly. This is what we hoped the QHSR would facilitate.
                         grading the 2014 qhsr
    DHS issued the first QHSR in 2010. The final product was, in my 
opinion, a good first statement of the Department's priorities. Having 
analyzed the range of short- and long-term threats to the United States 
in light of the Department's responsibilities, it synthesized these 
priorities into five core missions: Counterterrorism, border security, 
immigration enforcement, cybersecurity, and resilience to natural 
disasters and attacks. I imagine you are all familiar with the previous 
report so I will not spend much time discussing its details, other than 
to say that it was, in my mind, an effective articulation of where the 
Department's overarching focus should be.
    Thankfully, substantial progress has been made since the inaugural 
QHSR. The second report is better, more detailed and far-reaching in 
scope. It maintains the previous QHSR's five core DHS missions 
essentially unchanged, but it goes significantly further in analyzing 
the dynamic risks and challenges we face within these core areas. It is 
a more detailed statement of the principles that should guide 
individual decision making within the core framework. And it is a more 
comprehensive forecast of potential future threats to our homeland.
    This is not to say that the report is perfect. From my perspective, 
it is not clear that areas like cybersecurity or nuclear terrorism were 
approached with the same level of care as other forms of terrorism. 
With respect to cybersecurity, the 2014 QHSR has little new to say 
about the need to recruit and develop a skilled cybersecurity 
workforce, for instance. It also does not appropriately prioritize the 
importance of protecting critical U.S. infrastructure from espionage. 
To be sure, there are parts of the QHSR that need work. Nonetheless, on 
balance the report is an improvement over its predecessor.
    These improvements are not surprising to me, since this year's 
report has benefited from a consolidated Strategic Planning and Risk 
Analysis department (SPAR). As I am sure you are aware, DHS combined 
the Offices of Strategic Plans and Risk Management in 2012 into a 
single group. This was a good idea; the combination has resulted in a 
more methodical, efficient analysis of the relevant data. The 2014 QHSR 
is also the result of substantially more cooperation between DHS and 
stakeholders, both public and private. Accordingly, it is a more 
complete description of the broad range of threats we face in the 
United States, based on a wider range of perspectives.
    The quality of this year's report is surely the product of the 
tremendous professionals in the Department. This begins with Secretary 
Jeh Johnson's stewardship. It is clear that Secretary Johnson sees the 
value of strategic planning for the Department. Although still 
relatively new to DHS, he wasted no time in quickly making the QHSR his 
own, apparently redrafting portions of it to better bring them into 
alignment with his vision. The result is a clear statement of his and 
the Department's priorities.
    More generally, I have been pleased to see that Secretary Johnson 
is also committed to unifying the Department's components into 
something, in his words, greater than the sum of its parts. The ``Unity 
of Effort'' memo he sent to the Department's leadership in April of 
this year is a good example of his commitment to embrace strategic 
thinking beyond what is mandated by the QHSR.
    I suppose it didn't hurt that Secretary Johnson was able to see how 
much those of us involved in starting the QHSR cribbed from the Defense 
Department's Quadrennial Defense Review (``QDR''). Like DHS, DoD is a 
group of proud, independent components with often divergent traditions 
and missions. Yet, DoD has often succeeded in fostering a larger sense 
of unity where DHS has not. Obviously, this is due in part to DoD 
simply having been around longer. DHS is, after all, barely 10 years 
old. When DoD was older than that, the Secretary of Defense reportedly 
asked the Navy during the missile crisis how the embargo of Cuba would 
be carried out; he was reportedly told that it would be done in 
accordance with Navy tradition and international law, and that he could 
retire to his quarters, secure in the knowledge that the Navy would 
call for his advice if and when the Navy thought that was necessary. I 
am confident that DHS is past that point in its drive for unity.
    And so of course is DOD. We looked to the QDR as an exemplary 
strategic planning exercise that played an important part in fostering 
a culture of unity within DoD--an influence Secretary Johnson has 
correctly reinforced.
    I would also be remiss if I did not mention Alan Cohn, assistant 
secretary for strategy, planning, analysis & risk. Assistant Secretary 
Cohn has led the QHSR process for both the 2010 and 2014 editions. His 
hard work and ability to find consensus is one of the principal reasons 
the current report is as good as it is. The only real credit I can take 
for the QHSR as it stands today stems from the fact that I had the 
wisdom to hire and then promote Assistant Secretary Cohn. I am happy I 
did--he has made me look brilliant ever since (and he, at least, knows 
how hard that is). Without question, he has turned out to be one of the 
important career talents for the Department in this area.
    bringing the department's budget into alignment with the qhsr's 
                        statement of priorities
    As I mentioned before, the 2010 QHSR did a fine job stating the 
Department's priorities. It was less effective, however, at actually 
linking the budget up with these priorities. From the perspective of 
2014, we can look back and see clearly that, in practice, the 
allocation of money within the Department did not end up tracking the 
QHSR all that closely. We can chalk that up, perhaps, to the learning 
curve, but we should expect the second QHSR to have a greater influence 
on funding decisions inside the Department.
    But there are more fundamental issues with the way money is 
allocated within DHS that make it difficult for the Secretary to bring 
DHS's budget into alignment with his priorities as they are described 
in the QHSR. These issues need to be addressed if the report is to ever 
approach the level of efficacy we hoped it would have. For an agency 
like DHS, which is mainly in the business of execution rather than 
oversight, funding is everything. Compare DHS with oversight agencies 
like the Environmental Protection Agency, whose primary function is 
writing rules for others to follow. While those agencies obviously need 
to keep the lights on, their ability to perform their mandate is less 
tied to appropriations and more to the legislative authority they 
receive. DHS, in contrast, is far more often in the business of 
execution rather than oversight. Most of its missions are carried out 
directly. When you cross a border you are met by DHS employees. The 
same is true if you are lost at sea and need rescue, are boarding an 
airplane, or are caught counterfeiting funds or illegally immigrating 
into the United States.
    How--and how well--DHS does these jobs depends largely on how it 
allocates its budget. Thus, while strategic planning exercises like the 
QHSR are useful in their own right, they can easily become sterile 
exercises if no one believes they will actually drive budgetary 
decisions. Make no mistake about it, a statement of the Department's 
priorities, no matter how lucid, will ultimately ring hollow if the 
priorities are not honored when budget decisions are made.
                     recommendations moving forward
    This is not to say that the QHSR should be a holy writ that 
determines budgetary allocations for an entire 4-year period. It should 
not be, and it will at times be necessary to deviate from the script in 
order for the Department to be able to effectively respond to the 
dynamic range of challenges it is sure to face. While long-term 
strategizing is vital, so too is making sure that the Secretary and the 
components within DHS can fluidly make decisions to respond to threats 
as they emerge. The QHSR is not a substitute for judgment. Instead, the 
report is what I would call an auto-pilot. It is a mechanism for 
individuals within DHS to understand how to carry out their jobs unless 
and until they know the Secretary has reconsidered. And it is a way to 
make sure the Secretary can be confident that those within the 
Department are following his objectives, even when he is not personally 
overseeing them.
    Finally, one other issue I would like to briefly address is the 
degree to which the Department of Justice has been given a near veto 
over the QHSR, presumably by the Office of Management and Budget. I 
simply do not understand how it is that DHS's strategic plan can be 
delayed by an agency that has no skin in the game. There is no reason 
to allow the QHSR to be delayed for so long, particularly at the 
instance of another Cabinet department.

    Mr. Duncan. Thank you for your testimony.
    I will recognize Frank next. Pronounce your name for me.

 STATEMENT OF FRANK J. CILLUFFO, ASSOCIATE VICE PRESIDENT AND 
   DIRECTOR, HOMELAND SECURITY POLICY INSTITUTE, THE GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Cilluffo. SIH-LU-FO.
    Mr. Duncan. Thank you so much. You are recognized for 5 
minutes.
    Mr. Cilluffo. Thank you, Chairman Duncan, and Ranking 
Member Barber, Congressman Payne, thanks for the opportunity to 
join you today. I think you guys hit it out of the park in 
terms of your opening remarks. I think you captured a lot of 
what a lot of us are struggling and thinking about in terms of 
the QHSR in terms of its strengths and in terms of its 
weaknesses. There is nothing I disagree with my good friend and 
long-time co-conspirator, Stewart Baker.
    But I thought I would maybe pick up on a couple of points 
that haven't been raised. First, talk a little bit about the 
threat, and then maybe focus on some of the recommendations.
    I think it is important to recognize that the QHSR does 
come at a time of incredibly significant international 
instability. I think there is a feeling that we are in a safe 
place. The reality is, if you were to close your eyes and point 
to a place on the map, I can tell you, or we can tell you, what 
some of the challenges and concerns are. They are varied and 
they are many, and they come in various shapes, sizes, flavors, 
and forms.
    I think Mr. Duncan, you were spot-on to highlight the 
growing nature of state-sponsored terrorism, which is back. 
Whether it is the government of Iran in support of Hezbollah, 
or some of the Shia militias, or others, others are turning to 
proxies, as well. If you just look at what played out in Crimea 
vis-a-vis Russia, you have a role of proxies. You see that in a 
very strong form vis-a-vis cyber, where everyone is turning to 
proxies to do their bidding. In terms of the non-state Islamist 
threat, though, we have got problems on our hands.
    At the end of the day, you have got broad swaths of 
territory and ungoverned spaces that are providing and 
affording our enemies the time and space to plan and execute 
attacks. Obviously, when we look at Iraq in the past couple of 
days, it is incredibly disconcerting that some of the hard-
earned gains both in terms of treasure but, more importantly, 
in terms of lives of our men and women in uniform are being 
rolled back. That is--that is unacceptable.
    Why Yemen, why Iraq, why the Sahel, the Magreb, which are 
broad swaths of territory--why are these concerns? They are 
ungoverned spaces and they are under-governed, where the 
authority--where nations have been usurped by those that have 
more hostile aims.
    For awhile there, we were applying enough pressure that 
they were spending more time looking over their shoulder and 
less time plotting and executing attacks. This is a big 
concern, and it does have ramifications in terms of our next 
steps in Afghanistan.
    Moreover, you are seeing advances in technology that have 
increased the lethality of weapons, targeting systems, and 
means of communication used by terrorists. New and powerful 
avenues of recruitment and radicalization have opened up, 
notably through social media. I might note, even in terms of 
ISIS in Iraq, they now are coming out with propaganda very 
similar to al-Qaeda in the Arabian Peninsula's Inspire 
magazine, in English, and clearly targeting, and aimed at, 
Westerners, including Americans.
    And why is Syria and the foreign fighter flow you are 
seeing spill into Iraq of such concern? We are talking over 70 
countries--3,000 Westerners, including over 70 Americans. At 
some point they return. What makes Syria unique is that unlike 
the foreign fighter flows we have seen in the past--whether in 
the AfPak region or in Yemen or in Somalia--they were primarily 
focused on a single diaspora.
    What you are seeing in Syria is flocking from all over the 
world. At some point, you are gonna see new networks. You are 
gonna see Yemenis who have bomb-making experience meeting up 
with Brits who have social media experience. It is these new 
networks that I think are going to be of significant concern.
    Don't think for a minute that al-Qaeda isn't doing talent-
spotting on the battlefield and identifying individuals that 
they will turn back to the West. This is a big concern. That is 
why foreign fighters, I think, are especially significant.
    In terms of the cyber threat, I do feel this is--when you 
look at the homeland, you can attack the United States without 
ever stepping foot in the country. At the high end of the 
threat spectrum, we are obviously talking about nation-states: 
China, Russia, Iran, North Korea. Some are engaged primarily in 
espionage, others are engaged in more computer network attack, 
or attacking our systems.
    Again, the role that proxies play is quite significant 
here. Because who is behind that clickety-clack of the 
keyboard? Anonymity; attribution is very difficult to discern 
in cyber space. So I think a lot more there. I think as you 
start seeing the internet of things, where physical and cyber 
converge, you are going to see new threat vectors. I think one 
thing the Department deserves some credit on is recognizing the 
convergence of physical and cyber threats in the QHSR.
    Bottom line on the QHSR, as Stewart said, we don't--I think 
we are all tired of speeches. At the end of the day, unless the 
QHSR has bite and can be aligned to budget planning and budget 
processes, which it didn't do the first go-around, it is merely 
rhetoric. Policy without resources is rhetoric.
    We do have to make tough decisions. In the words of 
President Eisenhower, we actually need security and we need 
solvency. I think that is what we are struggling with here, is 
the need to be able to make some of those tough decisions, get 
the greatest return on our investment, and get the most bang 
for our buck. Doesn't do that thus far.
    One thing I want to just highlight as I close is, I give 
you props and kudos for passing the acquisition legislation. I 
think there is a lot you can do using that model to keep your 
oversight functions moving, as well, in terms of some of the 
policy deliberations. We do need to elevate the Office of 
Policy to an under secretary. That will give you more oversight 
function. I think the committee itself can play a more 
significant role with authorization bills that can align to 
some of the budget-making.
    So, Mr. Chairman, thank you for the opportunity to join 
you.
    [The prepared statement of Mr. Cilluffo follows:]
                Prepared Statement of Frank J. Cilluffo
                             June 20, 2014
                              introduction
    Chairman Duncan, Ranking Member Barber, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify before 
you today.
    The Department of Homeland Security has now completed its second 
Quadrennial Homeland Security Review (QHSR), and is expected to issue 
its report to Congress on the results of this review shortly. My 
testimony today will comment on key issues addressed in a draft version 
of the report, beginning with general remarks and then focusing on what 
I believe are the two most critical threats facing the homeland today: 
Terrorism threats and cyber-related threats.
    This QHSR comes at a time of significant international instability. 
Although our homeland security posture has improved substantially in 
the last decade-plus, the terrorist threat climate in which the United 
States finds itself today is in many ways reminiscent of that prior to 
9/11, sharing a number of similar attributes and characteristics. The 
current climate is also one marked by budget cuts as well as the roll-
back of hard-earned gains that had been achieved through the investment 
of billions of dollars and, most importantly, the lives of thousands of 
our men and women in uniform.
    Against this background, it is all the more disconcerting to see 
that in Iraq and Syria, terrorist groups have found space and time in 
which to maneuver, plot, and execute attacks; all while U.S. forces 
prepare to draw down in Afghanistan. In Africa, we see a constellation 
of active and skilled terrorist groups in the Maghreb and Sahel, from 
Boko Haram in Nigeria, to al-Qaeda in the Arabian Peninsula (AQAP) in 
Yemen, to Ansar al-Sharia in Libya, to Ansar al-Dine in Mali, to al-
Shabaab in Somalia. At the same time, advances in technology have 
increased the lethality of weapons, targeting systems and means of 
communications used by terrorists. New and powerful avenues of 
recruitment and radicalization have opened up, notably through social 
media. These tools have in effect shrunk the globe as young, tech-
savvy, and like-minded extremists are connecting in the dark corners of 
the web--as evidenced by the swell of foreign fighters flocking to 
Syria. As a result, what happens overseas has significant domestic 
implications, including with respect to homegrown violent Islamist 
extremism.
    In addition to the Islamist threat posed by terrorism, the cyber 
domain is a permissive environment, which is made for plausible 
deniability, for a wide range of U.S. adversaries who need never set 
foot in this country in order to do us harm. Our political, military, 
and economic secrets including our intellectual property are being 
siphoned out covertly by cyber means, specifically computer network 
exploitation (CNE). From CNE--to include mapping of our critical 
infrastructure systems, to computer network attack, to cyber crime 
perpetrated by forces whose capabilities have grown to such an extent 
that some of these criminal groups are now even on par with some 
nation-states' abilities and capacities, the range of activities and 
actors with hostile intent is both wide and deep. Nation-states are 
investing in and building up their cyber war capabilities, as well as 
integrating these capacities into their broader war-fighting doctrine 
and operations. Moreover, nation-states are making use of proxies for 
both physical and cyber attacks. In these regards, China, Iran, North 
Korea, and Russia are of abiding concern.
    The ecosystem of threats facing DHS and the homeland is thus varied 
and seriously challenging. From physical threats to cyber threats, and 
the nexus between the two, DHS and the Nation must stand ready and 
prepared for the full gamut of these scenarios. We must position 
ourselves to be as nimble in prevention and response as is required to 
meet whatever variant or form in which the threat of today and tomorrow 
manifests.
                          overview of the qhsr
    Congress established the Quadrennial Homeland Security Review in 
law in 2007 as a mechanism to focus senior leadership attention at DHS 
on long-term strategic issues, enhance the strategic planning processes 
within the Department, and then ultimately to ``strengthen the linkages 
between strategy and execution'',\1\ particularly with respect to the 
Department's operational requirements and budget decisions.
---------------------------------------------------------------------------
    \1\ Quoted from page 403 of H.R. 110-259, House-Senate Conference 
Report for the Implementing Recommendations of the 9/11 Commission Act 
of 2007, July 25, 2007.
---------------------------------------------------------------------------
    The first QHSR report, released at the end of 2009, played a 
valuable role with respect to defining the strategic priorities of the 
Department, but did not have a significant impact in terms of 
implementation. Very few of the initiatives outlined in the follow-on 
``Bottom-Up Review'' were ultimately implemented, and the QHSR did not 
appear to have a major impact on successive budget requests within DHS.
    This second QHSR has built on the positive and negative lessons of 
the first review, and the activities that informed the review have 
matured in the past 4 years. Overall, the strategic framework defined 
within the report is robust, and reflects hard choices about which 
issues are of greatest priority to the Department. Notably, it calls 
out biological threats as a significant homeland security priority--an 
area that I believe has received insufficient attention by policy 
makers in the last few years, but which is likely to represent the 
greatest long-run catastrophic terrorist threat that we face.\2\
---------------------------------------------------------------------------
    \2\ See for example Nathan Myhrvold, Strategic Terrorism: A Call to 
Action, The Lawfare Research Paper Series, Research Paper No. 2--2013 
(July 2013 Working Draft) http://fortunedotcom.files.wordpress.com/
2013/10/strategic-terrorism-myhrvold-7-3-2013.pdf.
---------------------------------------------------------------------------
    But the real verdict on this QHSR will come in the months and years 
ahead. It is imperative that this QHSR is used to inform key strategic 
decisions in the next 4 years, starting with the fiscal year 2016 
budget request to Congress that will be released next February. As the 
primary House authorizing committee for DHS, this committee has the 
opportunity in the next 4 years to hold the Department accountable for 
implementing the strategic priorities outlined in this review.
    I should note here that it is refreshing that Secretary Johnson and 
his leadership team are taking these strategic issues seriously, 
particularly with respect to the ``Unity of Effort'' initiative that is 
underway within the Department, as outlined in a memorandum by 
Secretary Johnson sent to his senior leadership team in April of this 
year.\3\ The issues raised by the Secretary in this memorandum are 
critical, particularly with respect to the integration and 
effectiveness of policy, management, and operational activities within 
the Department. I would urge the committee to consider legislation that 
strengthens key offices--such as the Office of Policy, which has never 
been authorized in statute--and holds DHS accountable for making 
progress on these ``Unity of Effort'' objectives, along the lines of 
what you have already done with the recently-passed legislation on DHS 
acquisition. I should also note that the Homeland Security Policy 
Institute is forming a task force that will take an independent look at 
these ``Unity of Effort'' issues, and we look forward to engaging 
further with the committee on this in the months ahead.
---------------------------------------------------------------------------
    \3\ Memo available at: http://www.hlswatch.com/wp-content/uploads/
2014/04/DHSUnity- OfEffort.pdf.
---------------------------------------------------------------------------
    For the remainder of my testimony, I will focus on two of the five 
top-level homeland security missions defined within the QHSR framework: 
Preventing terrorism and addressing cyber threats. While my remarks 
center on these two areas, I would emphasize that we must also remain 
focused on other important DHS missions, to include emergency 
preparedness and disaster response, and the task of securing the 
Nation's borders.
                          preventing terrorism
    The terrorist attacks and atrocities within the past week in Iraq 
by ISIS (the Islamic State in Iraq and Syria), in Kenya by al-Shabaab, 
and in Nigeria by Boko Haram are stark reminders of the persistent 
Islamist terrorist threat, not only in the region, but also with 
respect to the threat of attacks against the homeland. They are also an 
example of the increasing fragmentation and diversification of 
terrorist threats; as the introduction to the draft QHSR report notes, 
``the terrorist threat is increasingly decentralized and may be harder 
to detect.''
    Of particular concern is the foreign fighter threat in Syria, which 
is now also spilling over into Iraq; indeed, I would argue that the two 
conflicts are merging into a single regional insurgency. In Syria, we 
have seen the on-going civil war become a magnet for foreign fighters 
from no less than 74 countries around the world.\4\ Up to 3,000 
Westerners have traveled to fight in Syria since the conflict began, 
including more than 70 Americans.\5\ Disturbingly, the Syrian conflict 
has given rise to new networks and new connections. For example, bomb 
makers are meeting up with individuals who are well-versed in media, 
especially social media. Armed with Kalashnikovs, laptops, and cell 
phones, foreign fighters are thus amassing and emerging with new and 
blended skill-sets and expertise, including potentially expertise with 
chemical weapons.
---------------------------------------------------------------------------
    \4\ Aaron Y. Zelin, ``Up to 11,000 foreign fighters in Syria; steep 
rise among Western Europeans,'' The International Centre for the Study 
of Radicalisation (ICSR)--Insight (Dec. 17, 2013), http://icsr.info/
2013/12/icsr-insight-11000-foreign-fighters-syria-steep-rise-among-
western-europeans/.
    \5\ Kimiko De Freytas-Tamura, ``Foreign Jihadis Fighting in Syria 
Pose Risk in West,'' New York Times (May 29, 2014), http://
www.nytimes.com/2014/05/30/world/middleeast/foreign-jihadis-fighting-
in-syria-pose-risk-in-west.html.
---------------------------------------------------------------------------
    Within the past month, we have begun to see examples of the global 
implications of this foreign fighter threat. In late May, a French 
national and former Syrian foreign fighter committed a terrorist attack 
at a Jewish museum in Brussels, Belgium, killing 4 people. The United 
Kingdom and Spain both made high-profile arrests of individuals 
recently who had traveled to Syria to fight or who were involved in 
facilitating such travel. And an American citizen from Florida who was 
fighting in Syria carried out a suicide truck bombing attack in late 
May. ISIS is now issuing English-language propaganda, similar in nature 
to al-Qaeda in the Arabian Peninsula's Inspire magazine.\6\ These 
examples are likely to be leading indicators of a direct terrorist 
threat that the United States and other Western nations will face in 
the months and years ahead.
---------------------------------------------------------------------------
    \6\ Rosen, Armin, ``ISIS is Bragging about its `Brazen' Attack on 
Mosul in its English Language Magazine.'' Business Insider (June 10, 
2014). http://www.businessinsider.com/isis-is-bragging-in-its-english-
language-magazine-2014-6.
---------------------------------------------------------------------------
    Countering the challenge posed by foreign fighters must therefore 
be a priority mission for DHS, and not just conceptually. The 
Department of Homeland Security already plays an important role in one 
way in mitigating potential threats to the homeland from Syrian foreign 
fighters: Its activities to detect and prevent terrorist travel and 
entry into the United States. It is critical that key activities 
related to terrorist travel--at CBP, TSA, ICE, US-VISIT, and the Office 
of Intelligence and Analysis--are maintained and strengthened even in 
this difficult budget environment for the Department.
    Another key responsibility for DHS (along with the FBI, National 
Counterterrorism Center, the State Department and other agencies) has 
been less well-developed: Countering the ideologies of violent Islamist 
extremism (``CVIE'') that radicalize individuals and replenish the 
ranks of our terrorist adversaries. This is the biggest missing 
dimension of U.S. counterterrorism statecraft to date. The State 
Department's Center for Strategic Counterterrorism Communications is 
doing some good work overseas in this area in foreign languages, but 
very little is being done domestically. A systematic strategic 
communications effort is needed, aimed at exposing the hypocrisy of our 
adversaries' words versus their deeds. The goal is to knock terrorist 
groups off-balance; embarrass their leadership by bringing to light 
their seamy connections to criminal enterprises and drug trafficking 
organizations; and broker infighting among al-Qaeda, its affiliates, 
and the broader jihadi orbit in which they reside--which will damage 
violent extremists' capability to propagate their message and organize 
operations.\7\ Again, it is crucial to link priorities with budgets. A 
former senior White House official, Quintan Wiktorowicz, recognizes as 
much in recent commentary that emphasizes the need for a dedicated CVIE 
budget: ``It is Time to Fund Domestic Counter-Radicalization.''\8\ The 
piece makes several solid points, including the need to invoke 
community engagement in this effort. While that is part of the 
equation, however, CVIE also needs to support the pointier end of 
operational counterterrorism efforts, Federally and at the State and 
local level.
---------------------------------------------------------------------------
    \7\ Frank J. Cilluffo and Sharon L. Cardash, ``It's the Ideology, 
Stupid,'' The National Interest (June 3, 2013), http://
nationalinterest.org/commentary/it%E2%80%99s-the-ideology-stupid-8537.
    \8\ http://www.lawfareblog.com/2014/06/the-foreign-policy-essay-it-
is-time-to-fund-domestic-counter-radicalization.
---------------------------------------------------------------------------
    The current conflict in Syria and Iraq is symptomatic of a broader 
concern: The circumstance of ungoverned or under-governed spaces that 
provide our adversaries with the time and space needed to recruit, 
train, and plot. Instead of being back on their heels, looking over 
their shoulders, our adversaries are benefiting from conditions that 
provide them with a level of freedom of action that they have not 
experienced in recent history. Note that ungoverned and under-governed 
spaces do not need be geographically vast in order to facilitate 
terrorist activity; under-governed neighborhoods in large cities in 
countries such as Pakistan, Kenya, and Nigeria can also provide a form 
of safe haven to terrorist groups. Urban environments also serve to 
limit U.S. military options. To further cement the dilemma, these 
developments are taking place when our intelligence collection 
platforms are becoming fewer and perhaps less effective than in the 
past, due to the draw-down of American forces in Afghanistan and Iraq 
and due to the damaging revelations of critical U.S. intelligence 
collection activities in the past year.
    For all of these reasons, the terrorist threat to the homeland is 
becoming increasingly grave, and it is critical that DHS and its 
Federal, State, and local partners remain focused on detecting and 
countering these threats in the months and years ahead. As threats 
evolve, DHS also needs to be agile and continuously evaluate the 
effectiveness of its various activities in countering such threats, and 
invest in new tools and capabilities to address emerging threats. This 
committee can play a significant role in ensuring that the Department 
does not succumb to inertia and is focused on anticipating and 
addressing such emerging threats.
                             cybersecurity
    The rapid growth in cyber-related threats in the last few years has 
led some senior Government officials to assert that cyber threats have 
now surpassed terrorism as the most significant National security 
threat to the United States. I am not yet prepared to agree with such 
an assessment, for all of the reasons discussed in the previous 
section; and would argue instead that it is not an either/or 
proposition--that we must be prepared to defend against both types of 
threats. But it is undoubtedly true that the cyber threats to U.S. 
National security and economic interests have significantly advanced in 
recent years, and taken on new dimensions, particularly in the area of 
cyber threats to critical infrastructure.
    The cyber and physical threats to critical infrastructure have been 
a key focus of Executive Branch policy making in the past 2 years, 
through activities mandated by Executive Order 13636 and Presidential 
Policy Directive 21. These threats are also highlighted in the draft 
QHSR report, which discusses how cyber-physical convergence and 
interdependence has ``changed the risks to critical infrastructure in 
sectors ranging from energy and transportation to agriculture and 
health care.'' Vulnerabilities in these sectors could give rise to 
catastrophic outcomes, especially if cascading effects ensue as a 
result of interdependencies between and among critical sectors. The 
physical attack last year on the PG&E Metcalf substation is an example 
of this convergence and interdependence of threats; if that attack had 
been slightly more damaging, it could have had a severe impact on the 
power grid in Silicon Valley.
    DHS plays a critical role in addressing and mitigating these cyber 
threats, working with other Federal, State, and local government 
partners on threats to government networks, and of equal importance, 
forming strong partnerships with the private sector. These public-
private partnerships are critical given that the predominant share of 
the relevant cyber infrastructure and expertise is located within the 
private sector--in Silicon Valley, and in our key economic sectors, 
including defense, energy, finance, and telecommunications. DHS has 
made significant progress in building its relationships with the 
private sector on cybersecurity in recent years, particularly with 
respect to its incident response activities at the National 
Cybersecurity & Communications Integration Center (NCCIC) and 
Industrial Control Systems Cyber Emergency Response Team (ICS-CERT). 
But it still needs to improve, particularly with respect to its 
analytic activities on cyber threats and risks. Currently 
responsibility for cyber analysis is split between the DHS Office of 
Intelligence and Analysis (I&A), and the National Protection and 
Programs Directorate. These two parts of DHS need to become better 
synchronized in their analytic efforts and work together to best 
support critical infrastructure stakeholders in the private sector.
                   final thoughts and recommendations
    The QHSR is an important deliberative process for the Department of 
Homeland Security. Unless we define our priorities clearly and fund 
them accordingly, we will not be optimizing our efforts to address 
these critical threats to the homeland.
    But such a review cannot simply be an exercise that takes place 
every 4 years; the threats that we face are evolving too rapidly for 
such widely-spaced reviews. Instead, this process of review and 
assessment needs to be fully embedded into the day-to-day decision-
making processes of the Department. One proposal that would promote 
this is the establishment of an Office of Net Assessment (ONA) within 
DHS, similar to the office of the same name at the Department of 
Defense. The ONA would produce comprehensive long-term analysis of 
future homeland threats and the capabilities needed to meet those 
threats. I would urge this committee to consider establishing the ONA 
in law, building on the existing capabilities of the Office of 
Strategy, Planning, Analysis, and Risk within the DHS Office of Policy. 
This is not a new idea, but rather one that Congressman Lee Hamilton 
and I first put forward back in January 2007, in the Homeland Security 
Advisory Council (HSAC) Report of The Future of Terrorism Task 
Force.\9\
---------------------------------------------------------------------------
    \9\ Report available at: http://www.dhs.gov/xlibrary/assets/hsac-
future-terrorism-010107.pdf.
---------------------------------------------------------------------------
    In closing and as detailed above, I would recommend the following 
actions for your consideration:
  <bullet> The ultimate value of the QHSR will be determined by the 
        influence that it has on budgets, plans, and operational 
        requirements. This committee can use its oversight function to 
        determine whether this is being done. Otherwise, policies such 
        as the QHSR are merely empty rhetoric.
  <bullet> Introduce and work to pass a set of DHS authorization bills. 
        This is a challenge given the fragmented structure of 
        Congressional oversight of DHS, but is worth pursuing, and can 
        be done in piece-meal manner to reduce the complications caused 
        by this jurisdictional situation. In particular, the committee 
        can authorize the headquarters elements of the Department and 
        update core DHS authorities in the Homeland Security Act. 
        Legislation can also be moved to authorize other components of 
        DHS, such as Customs and Border Protection, as Chairman McCaul 
        has recently proposed.
  <bullet> To support DHS authorization, the committee should work with 
        the Department to strengthen the annual Future Years Homeland 
        Security Program (FYHSP) reports required currently in the 
        Homeland Security Act, so that they can be used as a critical 
        source of information for authorization legislation, along the 
        lines of the role played by the Future Years Defense Program 
        (FYDP) reports for annual defense authorization legislation.
  <bullet> As part of authorization legislation, establish the DHS 
        Office of Policy in law, to be led by an under secretary for 
        policy. This idea was originally proposed by Secretary Chertoff 
        nearly 9 years ago, but has stalled because of resistance by 
        Congressional committees that have secondary jurisdiction over 
        parts of DHS. It is time to elevate and strengthen the Office 
        of Policy by the finally establishing it in law, a step that 
        will also give Congress greater influence over its priorities 
        and functions.
  <bullet> Establish an Office of Net Assessment (ONA) within DHS to 
        provide the Secretary with comprehensive analysis of future 
        threats and U.S. capabilities to meet those threats.
  <bullet> Prioritize the challenge posed by foreign fighters, 
        particularly those fighting in Syria and Iraq. In part this 
        means maintaining and strengthening key DHS activities related 
        to terrorist travel, even in this difficult budget environment. 
        It also means placing greater priority and increasing funding 
        for programs and activities intended to counter violent 
        Islamist extremism.
  <bullet> Better synchronize I&A and NPPD in terms of their cyber 
        analytic activities and private-sector stakeholder outreach.
    Thank you again for the opportunity to testify before you today. I 
look forward to trying to answer any questions that you may have.

    Mr. Duncan. Thank you for that. Very refreshing. I think 
you are right. The acquisition bill gives us at least some 
oversight and gives us some leverage. One thing I will say 
about Chairman McCaul, with the authorization bill that where 
we finally authorize the Department, I think is the right thing 
to do, as well. So I thank you for that.
    The Chairman will now recognize Dr. Willis for 5 minutes.

STATEMENT OF HENRY H. WILLIS, DIRECTOR, RAND HOMELAND SECURITY 
            AND DEFENSE CENTER, THE RAND CORPORATION

    Mr. Willis. Thank you, Chairman Duncan, Ranking Member 
Barber, and Members of the subcommittee. Thank you for inviting 
me to testify at this hearing.
    Yesterday, the Department of Homeland Security released the 
second Quadrennial Homeland Security Review. Converging trends 
of the evolving threats, increasingly constrained budgets and 
new leadership make now an opportune time for DHS to prioritize 
the Department's goals and ensure its programs are best aligned 
to meet them.
    Today, I will highlight three important ways Congress and 
DHS could work together to build on the results of this second 
quadrennial review. First, align DHS budgets with Department 
strategic guidance. Second, establish more effective oversight 
of DHS programs. Third, seek ways to improve the effectiveness 
and efficiency of the DHS by leveraging Department of Defense 
capabilities.
    Regarding my first point, aligning budgets with strategic 
guidance and risk management will make the Department more 
effective. The analysis behind the Quadrennial Homeland 
Security Review provides a basis for reasoned discussion of 
risk management priorities. Secretary Johnson has proposed new 
initiatives that could build on this progress.
    Specifically, in a memorandum to DHS leadership, Security 
Johnson proposed three initiatives: A Department leadership 
forum, Departmental management processes to review and 
implement joint requirements and oversight, an enhancement of 
headquarters strategy for planning and analysis capabilities. I 
encourage Congress to consider supporting each of these 
initiatives.
    Second, establishing effective oversight of programs will 
make the Department more efficient. Several GAO studies point 
out cases where effectiveness of DHS is either poor or 
undocumented, costs are uncontrolled, or oversight is lacking. 
While the Department continues to remedy these situations, 
there remains plenty of room for improvement.
    For example, a Rand paper published last year included a 
number of recommendations that could improve acquisition at 
DHS, including ensuring every major acquisition program has an 
approved acquisition program baseline document; not delegating 
decision-making authority for components until key planning 
requirements are met; conducting careful analysis of cost or 
schedule breaches to improve further acquisitions; and 
establishing more professional development opportunities for 
DHS acquisition officials.
    Congress has already helped DHS with these types of 
problems, through passing the H.R. 4228, and can continue to 
help DHS improve oversight by reinforcing and funding 
initiatives that allow DHS headquarters to implement 
recommendations like these.
    Finally, the homeland security enterprise will be stronger 
if DHS seeks ways to improve effectiveness and efficiency by 
leveraging DOD capabilities. The department of--many of the 
priorities identified in the Quadrennial Homeland Security 
Review require a whole-of-Government approach. Disaster 
management, border security, cybersecurity are just a few 
examples. The Department of Defense has also recognized the 
importance of these missions and the opportunity for 
collaboration.
    For example, defending the homeland was identified as the 
first pillar of National security in the 2014 Quadrennial 
Defense Review. There are many ways DOD capabilities may be 
used to support DHS missions. Examples include leveraging DOD 
technology demonstrations, learning from DOD experiences with 
cloud computing, and using DOD technologies to improve land, 
air, and maritime demand awareness.
    However, before implementing any of these or other 
solutions, Congress, DHS, and DOD should together ensure that 
the full acquisition and sustainment costs are known. That any 
transfer of technology has been coordinated with existing DHS 
acquisition strategies. That the use of DOD capabilities 
reflects the desired use of the military and civilian missions. 
That it is clear which organizations should bear the costs of 
these technologies and that, then, budgets reflect that.
    In closing, we all certainly want more effective protection 
from terrorism, better preparedness for disasters, and more 
resilient communities. The multiplicity and complexity of 
current homeland security threats, uncertainty surrounding what 
new threats could emerge or how known threats might evolve, and 
constraints in budget make it difficult to achieve these goals.
    However, if DHS is to overcome these challenges three 
things are required. Strategy focus to direct resources where 
they are most needed, strong oversight to assure that resources 
are used effectively and, finally, cooperation across 
Government to improve efficiency.
    Again, Chairman Duncan and Ranking Member Barber and 
Members of the subcommittee, thank you for inviting me to 
testify before you today on this very important opportunity for 
DHS.
    [The prepared statement of Mr. Willis follows:]
             Prepared Statement of Henry H. Willis \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT412.html.
---------------------------------------------------------------------------
                             June 20, 2014
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, thank you for inviting me to testify at this hearing.
    The Department of Homeland Security (DHS) will soon release its 
report on the second Quadrennial Homeland Security Review (QHSR). The 
convergence of several trends makes this an opportune moment for the 
Department to step back and assess what are the most pressing current 
and emerging homeland security challenges and decide how they should be 
addressed. Let me briefly mention five such trends:
  <bullet> First, onset of terrorism fatigue--When DHS celebrated its 
        10-year anniversary, some questioned whether law enforcement 
        and domestic security operations had become too focused on 
        terrorism at the cost of addressing other public safety issues 
        such as drug violence, public health, or crime.
  <bullet> Second, persistence of terrorism as a real threat--The 
        Boston Marathon bombing reminded us that attacks can happen 
        anywhere, anytime. Destabilization of governments that followed 
        the Arab Spring raises the prospect of new safe havens for 
        terrorism emerging. The recent al-Qaeda summit held in April by 
        Nasir al-Wuhayshi in Yemen demonstrates that al-Qaeda continues 
        to pursue global jihad.
  <bullet> Third, increasing threats from natural disasters--The 
        effects of Super Storm Sandy emphasized the consequences for 
        coastal communities of the combined impacts of continued 
        population growth and sea-level rise, and the need for 
        incorporating planning for community and infrastructure 
        resilience into economic development.
  <bullet> Fourth, cyber threats outpacing cyber defense--Last month's 
        indictment of five officers in the Chinese People's Liberation 
        Army for stealing information from six U.S. firms, along with 
        revelations of Operation Olympic Games, reveal the scope of 
        cyber crime and potential for malicious cyber attacks against 
        critical infrastructure.
  <bullet> Fifth, increasingly constrained Government budgets--Federal, 
        State, local, and Tribal governments have fewer resources to 
        address this expanding list of concerns.
    In short, when Secretary Johnson took the reins at DHS, he stepped 
into a deeply uncertain, utterly complex, and continuously dynamic 
environment with more constraints on the resources at his disposal. 
These converging trends, combined with new leadership and new guidance 
expected to arise from the QHSR, make now an opportune time for DHS to 
prioritize the Departmen's goals and assure its programs are best 
aligned to achieve them.
    The first QHSR brought DHS together to develop a collective list of 
all missions for components across the Department.\3\ Though 
comprehensive--the list spanned issues of terrorism, border control, 
immigration, cyber space, disaster management, and governance--the 
first review did not set priorities.
---------------------------------------------------------------------------
    \3\ Quadrennial Homeland Security Review Report: A Strategic 
Framework for a Secure Homeland, Department of Homeland Security, 
February 2010.
---------------------------------------------------------------------------
    The second QHSR will now set the stage for improving both the 
effectiveness and efficiency of DHS. The review includes a strategic 
assessment of the current and emerging homeland security threats, 
focused analysis on selected priority topics, and guidance on 
management priorities for the Department. I'd like to highlight three 
important ways Congress and DHS could work together to build on the 
second QHSR:
  <bullet> First, improve the linkages between budgets of DHS's 
        component agencies and strategic directions of the Department 
        as a whole on risk management;
  <bullet> Second, establish more effective oversight of programs once 
        initiated;
  <bullet> Third, seek ways to improve effectiveness and efficiency by 
        leveraging Department of Defense (DoD) capabilities, especially 
        for Defense Support of Civilian Authorities.
   improve linkages between budgets and strategic directions on risk 
                               management
    The Homeland Security Strategic Environment Assessment marks a 
significant accomplishment for DHS and reflects well the trends that 
are changing the homeland security landscape. The review covers 
persistent threats to the Nation from problems such as smuggling, 
illegal migration, and maritime safety. It also addresses catastrophic 
events such as hurricanes, earthquakes, pandemics, and terrorism. The 
strategic environment assessment describes all of these events in a 
common way, allowing for the first time an informed discussion of 
priorities based on risk.
    Knowing the facts about homeland security risks is important 
because the public's fear of terrorism and disasters can be out of 
alignment with the risks the events pose. The unpredictability of 
terrorism, individuals' uncertainty about how to protect themselves, 
and the realization that attacks are purposeful and not random all 
contribute to increased fear about terrorism.\4\ As an example of how 
fear can affect behavior, John Allen Muhammad and Lee Boyd Malvo (the 
Beltway Snipers) paralyzed communities and closed schools as the public 
and Government officials tried to understand what was happening and how 
to protect themselves. Fear of terrorism is further magnified by 
evocative images of suicide bombings that are replayed on TV and the 
internet.
---------------------------------------------------------------------------
    \4\ Cass R. Sunstein (2003). Terrorism and Probability Neglect. The 
Journal of Risk and Uncertainty 26:2/3 121-136.
---------------------------------------------------------------------------
    Fear of terrorism matters. Numerous studies--many supported by the 
DHS Science and Technology Directorate--demonstrate that even if other 
hazards threaten the same number of lives or economic activity, people 
are more concerned about terrorism events than other events, support 
spending more for terrorism security, and are willing to cede more 
liberties in the name of terrorism security.\5\ However, in reality, 
all terrorist events do not pose the same risks as other hazards.
---------------------------------------------------------------------------
    \5\ For example see, W. J. Burns (2007) Risk Perception: A Review, 
CREATE Report, May 22, 2007.
---------------------------------------------------------------------------
    When assessed side-by-side, there are many disasters, accidents, 
and crimes that have historically threatened more lives, caused more 
economic damage, and led to more societal disruption than terrorism. 
When presented with this evidence, people with different and competing 
interests often can agree on what problems are most serious and make 
judgments that are consistent with what is known about risks.\6\
---------------------------------------------------------------------------
    \6\ Russell Lundberg (2013) Comparing Homeland Security Risks Using 
a Deliberative Risk Ranking Methodology. RGSD-319, RAND Corporation, 
Santa Monica, CA.
---------------------------------------------------------------------------
    The analysis behind the QHSR will provide a basis for this type of 
reasoned discussion of risk management priorities. Secretary Johnson 
has proposed new initiatives that will build on the current progress. 
Specifically, in a memorandum to DHS leadership in April, Secretary 
Johnson proposed three initiatives:

  <bullet> First, a Departmental Leadership Forum for the ``most senior 
        leadership . . . to gather regularly . . . in an environment of 
        trust, and openly place on the table issues, arguments, and 
        disagreements concerning [DHS's] most challenging issues.'' 
        This forum could provide means for coordinated implementation 
        of leadership guidance and management initiatives.
  <bullet> Second, the establishment of Departmental management 
        processes to review and implement processes to develop joint 
        requirements for programs across DHS and improve oversight of 
        programs once implemented.
  <bullet> Third, the enhancement of headquarters strategy, planning, 
        and analytic capability to build and maintain the organizations 
        required to support the leadership and management initiatives 
        being proposed.\7\
---------------------------------------------------------------------------
    \7\ Secretary Jeh Johnson (2014). Strengthening Departmental Unity. 
Memorandum for DHS Leadership, April 22, 2014.
---------------------------------------------------------------------------
    I urge Congress to consider supporting each of these important 
initiatives.
        establish effective oversight of programs once initiated
    DHS programs are notorious for lacking appropriate oversight. 
Several Government Accountability Office (GAO) studies point out cases 
where effectiveness of DHS programs is either poor or undocumented, 
costs are uncontrolled, or oversight is lacking. While the Department 
has made progress and continues to remedy these situations, plenty of 
room for improvement remains.
    A review by GAO in 2011 suggested that more than half of the 77 
major acquisitions programs at DHS are over budget or behind 
schedule.\8\ In July 2013, DHS reported that 63 percent of its 
acquisitions programs had cost growth, and one-third of these programs 
had cost growth over 10 percent.\9\
---------------------------------------------------------------------------
    \8\ GAO, Homeland Security: DHS Requires More Disciplined 
Investment Management to Help Meet Mission Needs, Washington, DC, GAO-
12-833, September 18, 2012.
    \9\ GAO, Homeland Security: Observations on DHS Oversight of Major 
Acquisitions and Efforts to Match Resources to Needs. GAO-13-846T, 
September 10, 2013.
---------------------------------------------------------------------------
    A RAND paper published last year, Reducing the Cost and Risk of 
Major Acquisitions at the Department of Homeland Security, included a 
number of recommendations that could be expected to improve acquisition 
management at DHS based on experience with acquisition management in 
other contexts.\10\ For example:
---------------------------------------------------------------------------
    \10\ Jeffrey A. Drezner and Andrew R. Morral (2013). Reducing the 
Cost and Risk of Major Acquisitions at the Department of Homeland 
Security. PE-105, RAND Corporation, Santa Monica, CA.
---------------------------------------------------------------------------
  <bullet> Every major acquisition program should have an approved 
        acquisition program baseline document defining milestones and 
        requirements to which programs are held accountable for 
        demonstrating their readiness before progressing to new phases.
  <bullet> Decision-making authority, given to the DHS Office of 
        Management, should not be delegated to components until key 
        planning requirements are met.
  <bullet> Careful analysis of acquisition cost or schedule breaches 
        should be conducted to help the Department identify root causes 
        for these failures and incorporate lessons to improve future 
        acquisitions.
  <bullet> The Department should establish mechanisms for more 
        professional development opportunities for DHS acquisition 
        officials.
    Congress can help DHS improve oversight by reinforcing and funding 
initiatives that allow DHS headquarters to implement recommendations 
like these. And in fact, this committee has already proposed 
legislation, H.R. 4228, the DHS Acquisition Accountability and 
Efficiency Act, to improve acquisition management. Cooperation between 
Congress and DHS on improving oversight should continue.
  seek ways to improve effectiveness and efficiency by leveraging dod 
                              capabilities
    Many DHS priorities require a whole-of-Government approach.
  <bullet> Disaster management and pandemic preparedness to improve 
        community resilience requires cooperation among FEMA, DHHS, 
        DoD, HUD, local response organizations, private firms, and 
        NGOs.
  <bullet> Border security requires coordination of Federal and local 
        law enforcement agencies across several bureaucratic and 
        geographic jurisdictions to counter smuggling networks that 
        span several continents.
  <bullet> Cybersecurity must protect Government and private systems 
        from both State-sponsored and criminally-aligned threat 
        networks, potentially using capabilities that exist in several 
        departments, while balancing dynamic norms for privacy.
    At the same time DHS is deciding how best to address these 
challenges, the Department of Defense is scaling back use of its assets 
in theater operations (making them potentially available for other 
uses) and the Federal Government as a whole is wrestling with the 
realities of reduced budgets. The confluence of these events creates 
potential opportunities to identify ways to improve the effectiveness 
and efficiency of homeland security, especially in the areas of 
disaster management and border security.
    The Department of Defense has also recognized the importance of 
these missions and the opportunity for collaboration. Defending the 
homeland was identified as the first pillar of National security in the 
2014 Quadrennial Defense Review. Defense Support for Civilian 
Authorities remains a critical responsibility.
    Motivated by this synergy, RAND studies have identified several 
opportunities worth consideration:
  <bullet> On-going DoD technology demonstration efforts could be 
        leveraged to provide additional support to on-going DHS 
        operations.\11\
---------------------------------------------------------------------------
    \11\ Daniel Gonzales, Sarah Harting, Jason Mastbaum, Carolyn Wong 
(2104). Improving Interagency Information Sharing Using Technology 
Demonstrations: The Legal Basis for Using New Sensor Technologies for 
Counterdrug Operations Along the U.S. Border. RR-551-OSD, RAND 
Corporation, Santa Monica, CA.
---------------------------------------------------------------------------
  <bullet> Information sharing among local law enforcement and response 
        agencies and Federal agencies could be improved using DoD 
        lessons about how to design and operate cloud networks to 
        improve both disaster management and border security.\12\
---------------------------------------------------------------------------
    \12\ Isaac R. Porche III, Bradley Wilson, Erin-Elizabeth Johnson, 
Shane Tierney, Evan Saltzman (2104). Data Flood Helping the Navy 
Address the Rising Tide of Sensor Information. RR-315-NAVY, RAND 
Corporation, Santa Monica, CA.
---------------------------------------------------------------------------
  <bullet> Advanced Navy platforms and surveillance technologies could 
        improve maritime domain awareness for counter-narcotic 
        operations.\13\
---------------------------------------------------------------------------
    \13\ Scott Savitz, Irv Blickstein, Peter Buryk, et al. (2014). U.S. 
Navy Employment Options for Unmanned Surface Vehicles. RR-384-NAVY, 
RAND Corporation, Santa Monica, CA.
---------------------------------------------------------------------------
    These are just a few of the many ways DoD capabilities might be 
used to support DHS missions. However, before implementing any of them, 
Congress, DHS, and DoD should work together to:
  <bullet> Demonstrate how the new uses improve capability, and 
        estimate the associated acquisition and sustainment costs.
  <bullet> Coordinate transfer and use of DoD systems with existing DHS 
        acquisition strategies.
  <bullet> Ensure use of DoD capabilities for homeland security 
        missions is consistent with existing legal authorities and 
        policies and reflects the desired use of the military in 
        civilian operations.
  <bullet> Review policies associated with using DoD capabilities for 
        homeland security missions and address any policies that should 
        be streamlined or reinforced.
  <bullet> Clarify which organizations should bear the costs of 
        operating the technologies and adjust budgets accordingly.
               making the nation safer and more resilient
    The second QHSR should reflect continued maturation of governance 
at DHS and provide a stepping-off point for further improvements. We 
all certainly want more effective protection from terrorism, better 
preparation for disasters, and more resilient communities. The 
multiplicity and complexity of current homeland security threats, 
uncertainty surrounding what new threats could emerge or how known 
trends might evolve, and constraints on budgets, make achieving these 
goals difficult. If DHS is to overcome all of these challenges, three 
things will be required: Strategic focus to direct resources where they 
are most needed, strong oversight to assure that resources are used 
effectively, and finally, cooperation across Government to improve 
efficiency.
    Again, Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, thank you for inviting me to testify before you today on 
this very important opportunity for DHS. I look forward to taking your 
questions.

    Mr. Duncan. Thank you, Dr. Willis.
    The Chairman will now recognize Ms. Duke for 5 minutes.

    STATEMENT OF ELAINE C. DUKE, FORMER UNDER SECRETARY FOR 
        MANAGEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Good morning, Chairman Duncan, Ranking Member 
Barber, and Members of the committee. I appreciate being here, 
and thank you for your efforts in overseeing the Department 
with the goal of improving mission effectiveness. To my fellow 
panel members, who have already covered most of the key points 
of the hearing this morning.
    I do agree with both of you in your opening statements that 
the improvement of the management of DHS is key and essential 
to delivering the Quadrennial Homeland Security Review mission 
stats. I do support H.R. 4228 and its effects to improve 
management. I would like to state that in addition to being 
bipartisan, it also, in a large part, is policy-agnostic. It 
will succeed despite policy changes and changes in the threat 
environment. So to do this is really an investment of our 
future of homeland security.
    In the statements announcing this hearing, the Chairman 
mentioned that DHS must prioritize and make trade-offs on how 
to best keep us safe. Having a focused and affordable and 
achievable strategy is critical to reining in DHS's massive 
bureaucracy. I would like to focus my comments this morning on 
the piece of that statement about being achievable. I do 
believe that the efforts we have talked about here in terms of 
building the management and the operational infrastructure is 
essential to achieving this QHSR and future policy and strategy 
initiatives.
    In setting up the legislation to require the QHSR, the 
lawmakers recognized this. They mandated that the QHSR include 
an assessment of the organizational alignment of the Department 
with the National homeland security strategy and mission areas. 
That is really where the challenge lies. The management 
infrastructure, including the right people with the right 
policy, processes, allocation of resources and systems under 
united leadership, empowered with the data and analytics to 
make sound operational decisions. One sentence, a lot of work 
and a lot of effort.
    This is necessary, though--however, to transform the QHSR 
from a policy document into the living reality actually used to 
more effectively deliver the homeland security mission to our 
Nation.
    In the first years of DHS, we put the building blocks of 
management into place. Those building blocks included 
developing a budget process, developing a program and analysis 
PA&E capability, developing an acquisition system, logistics, 
and human capital. The challenge to achieving the QHSR mission 
objectives is to first continuing maturing those building 
blocks that were initially put in place during the first years 
of the Department. More importantly, integrating those building 
blocks into a system.
    The integrated model has to have policy- and strategy-
informing capabilities, which will be followed by requirements 
driving into programming and budgeting, acquisition, and life-
cycle management of the individual programs in the entire 
mission. Strategy has to be analytical, integrated, focused, 
and collaborative.
    I would like to point out, as Dr. Willis did, that 
Secretary Johnson's strengthening Department Unity of Effort 
memo dated April 22, 2014 outlines a strategy to accomplish 
this. That memo is packed with processes not only for policy, 
but for management, that I believe, if executed, would be key 
to further maturing the Department in the areas of management 
and supporting the policy of the QHSR.
    Several key tenets are in that memo. One is the senior 
leadership engagement, not only at the headquarters level but 
with the component, on a regular both strategic and tactical 
basis. That is essential to driving forward the Unity of Effort 
memo and accomplishing the QHSR.
    Second, the system must recognize the interfaces and 
interdependencies of the individual pieces of the management 
system from policy through execution and sustainment, as I said 
earlier. The imperative for a sound system also includes having 
the interdependencies of mission, as the QHSR shows.
    Moving forward to more of a risk-based approach must ensure 
that both the policy and the execution of the policies are 
interrelated and show those dependencies that, as we move 
towards a risk-based approach, we actually recognize the risk 
appropriately. It is critical that this initiative be carried 
through by the Department and sustained so that we can deliver 
that mission set to our country. The framework will continue to 
drive the Department towards maturity. Otherwise, the QHSR 
cannot be achieved effectively and efficiently, and it does 
become just another policy document on the shelf.
    I thank the committee for this opportunity and look forward 
to your questions.
    [The prepared statement of Dr. Duke follows:]
                  Prepared Statement of Elaine C. Duke
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, thank you for inviting me to testify this morning. Though 
I retired from Federal service, I still have a passion for the homeland 
security mission, and remain committed to the success of the Department 
of Homeland Security (DHS). I thank you for your efforts in overseeing 
the Department with the goal of improving mission effectiveness.
    DHS completed its first Quadrennial Homeland Security Review (QHSR) 
in 2010. Soon, it will issue the second QHSR, legislatively mandated by 
Section 707 of the Homeland Security Act of 2002, as amended. It is 
important that the QSHR be sound in terms of strategy and missions. 
Based on my experience with the first QHSR, DHS is spending 
considerable planning effort on updating the strategy and missions. It 
is updating the five basic homeland security missions:
  <bullet> Prevent Terrorism and Enhance Security,
  <bullet> Secure and Manage Our Borders,
  <bullet> Enforce and Administer our Immigration Laws,
  <bullet> Safeguard and Secure Cyberspace,
  <bullet> Strengthen National Preparedness and Resilience,
and ensuring the Department has the right mission set and strategy. I 
am certain my colleagues on this panel will provide that policy 
stakeholder perspective.
    However with my background and experience, most recently as the DHS 
under secretary for management, I'd like to provide the execution 
perspective, on behalf of the stakeholders responsible for developing 
the management infrastructure that turns the strategy and policy of the 
QHSR into successful mission operations.
    Therefore, I am focusing my comments today on that lesser 
discussed, but in my opinion an equally or more important aspect, of 
the QHSR. The Chairman, in his comments announcing this hearing stated 
that ``DHS must prioritize and make tradeoffs on how best to keep us 
safe. Having a focused, affordable, and achievable strategy is critical 
to reining in DHS's massive bureaucracy.'' Mr. Duncan's point that the 
strategy must be achievable is the critical issue, in my opinion. And 
the strategy is only achievable if DHS continues to build the 
management and operational infrastructure to execute it effectively and 
efficiently.
    Lawmakers recognized that fact when legislating that DHS must 
complete a Quadrennial Homeland Security Review. They mandated that the 
QHSR include an assessment of the organizational alignment of the 
Department with the National homeland security strategy and mission 
areas.
    The QHSR is to include recommendations not only regarding the long-
term strategy and priorities of the Nation for homeland security, but 
also guidance on the programs, assets, capabilities, budget, policies, 
and authorities of the Department. It must review and assess the 
effectiveness of the mechanisms of the Department for executing the 
process of turning the requirements developed in the Quadrennial 
Homeland Security Review into an acquisition strategy and expenditure 
plan within the Department. Additionally, it is to identify the budget 
plan required to provide sufficient resources to successfully execute 
the full range of missions called for in the review.
    This is where the challenges lie. The management infrastructure, 
including the right policy, people, process, allocation of resources, 
and systems; under united leadership empowered with the data and 
analytics to make sound operational decisions. This is necessary to 
transform the QHSR from a document to a living reality, actually used 
to more effectively deliver homeland security to our Nation.
    In the first 10 years of DHS, we put building blocks of the 
management structure into place to enable DHS to deliver the homeland 
security strategy and mission. Those building blocks included a budget 
process, program analysis and evaluation, acquisition, logistics, and 
human capital. The challenge to successfully achieving the QHSR is to 
continue maturing those building blocks. And even more importantly, 
integrating the building blocks into a system. In an integrated model, 
policy and strategy inform capabilities, followed by requirements, 
driving into the programming and budgeting processes, and acquisition 
and life-cycle management. Strategy must be analytical and integrated, 
focused, and collaborative. The strategic guidance must drive a joint 
capabilities-based analysis that identifies gaps and overlaps, analyzes 
alternatives to close those gaps and eliminate the overlaps, and 
develops requirements to fill them. And to ensure the capabilities are 
effectively delivered, there must be coordinated operational planning 
with scenarios against the DHS strategy. All aspects of the system must 
be driven by the most senior DHS leadership at both headquarters and 
the operating components, and executed with optimum unity. And it must 
be continually monitored against goals to ensure stated objectives are 
met.
    DHS Secretary Johnson's direction to continue maturing this system 
is set for in his ``Strengthening Departmental Unity of Effort'' memo 
dated April 22, 3014. This memo outlines the further development of DHS 
planning, management, and operations to deliver the DHS missions 
enumerated in the QHSR. It describes an integrated model designed to 
ensure that strategic and analytically-based decisions optimize mission 
performance.
    Several key tenants of the Secretary's Unity of Effort are critical 
to successful implementation of the QHSR. The establishment of regular 
meetings and engagement by the Secretary, deputy secretary, and 
operating component head leaders is critical to the Unity initiative. 
It must provide unified leadership that results in the optimum 
allocation of resources, while improving the management process for 
planning and investments. It must develop planning, programs, budgets, 
acquisition, that are currently effective, and also sustainable 
throughout the life cycle of the program and mission.
    This system must recognize interfaces and interdependencies and be 
based on good data and sound analytics. That will position DHS 
headquarters and operating component leadership to make the right 
decisions to execute the QHSR missions and strategies. DHS must have 
the infrastructure in place, then it can execute the evolving homeland 
security mission to be updated in the QHSR; it can achieve the 
strategy.
    The imperative for a unified, sound system is even stronger as DHS 
moves away from a one-size-fits-all security approach to a risk-based 
security model. A risk-based approach to security must be intelligence 
driven with complete situational awareness from integrated data. This 
requires Unity of Effort. The ability to perform effective case 
management and data-driven risk analysis is essential to the risk-based 
appraoch, and that data must be timely and accurate, and part of a 
unified effort.
    It is critical that once the QHSR is finalized, the initiative to 
strengthen delivery of the mission set is continued. The framework 
outlined in the memo must be brought to maturity. Otherwise, the QHSR 
cannot be achieved effectively and becomes just another policy document 
in the library.
    Again I thank the committee for this opportunity, and look forward 
to answering your questions today.

    Mr. Duncan. I want to thank you for that, and thank you for 
all the opening statements.
    I will now recognize myself for 5 minutes for questions. 
Before I get started, I just want to give sort of a shout-out 
to one of my staff members who has helped this committee as a 
shared employee. Rebecca Ulrich will get her master's degree 
today from the Naval War College. We are proud of her and she 
has helped the committee on both sides. We thank her for her 
hard work and congratulate her for her master's degree.
    I come from the private sector, and in business we did a 5-
year plan. I think that is important to set focus for the 
company, to steer the ship in a certain direction and try to 
put pieces in place to make your vision and your goals. So 
whether it is sales goals or performance goals or income goals, 
return on investment issues to make those happen. So I hope 
this plan isn't just eyewash for America. I hope it is not done 
just to meet a requirement of the United States Congress. I 
hope it is actually a vision for the Department going forward.
    I think that is the intent of Congress when they passed 
this, is to make DHS actually stop and focus on: What are the 
strategic threats to this country, where do we need to place 
our resources, where do we need to spend our money, and what do 
we need to do to ensure America is safe? So I hope that that is 
what has taken place.
    I do want to point out that in the strategic priorities for 
homeland security it says this: ``Continue to evolve 
immigration policies and processes in order to respond to new 
trends in illegal migration and further align our enforcement 
policies with our goal of sound law enforcement practice that 
prioritizes public safety.''
    In case you haven't noticed, we have a crisis situation on 
our Southern Border today. Regardless of how you feel about 
immigration reform in this country, you cannot sit idly by and 
watch this blatant invasion of our Southern Border and our rule 
of law by folks that are illegal crossing this country.
    Chain migration is a real thing. If the children enter this 
country, what happens with their families? Do they also come at 
a later day? I am concerned that we have CBP officers changing 
diapers and warming formula for these children. This is a 
humanitarian crisis, and I am very sympathetic to the 
humanitarian aspect of this.
    But I am also very cognizant of the fact that OTMs--other 
than Mexicans--a DHS term that says anyone other than a Mexico 
or nationality person that crosses in this country is an OTM. 
These are Guatemalans and El Salvadorians and Hondurans. I get 
that. But I am worried about the Asian, the Middle Eastern, and 
the African folks that are coming into this country and could 
possibly cross our Southern Border while we have CBP officers 
warming formula. What would they come here for? Would they come 
here to seek a job? Possibly.
    But we see what is going on in North Africa, and we talked 
about the foreign fighters in Syria. I am concerned that there 
are real threats that could possibly exploit this situation and 
enter my country, the sovereign Nation of the United States of 
America across our Southern Border because we are looking 
somewhere else, and we are dealing with something else.
    I am going to let my blood pressure calm down for just a 
second. Think about the world that we are living in today. We 
have got our border situation I just talked about. We have got 
Iraq and ISIS. We have got Syria and foreign fighters. We 
talked about foreign fighters a minute ago, and I appreciate 
that.
    We went overseas to actually look at this issue. While we 
were there, a foreign fighter came from Syria, came from the 
battlefield. He was European, he was battle-hardened, he was 
radicalized. He came to Belgium and he shot up a Jewish museum 
where four or five people were killed, while we were there. The 
French got lucky and caught him at a bus stop.
    He was in an open border Schengen area. With a visa waiver 
program, could that European nationality have flown into the 
United States? Because he didn't have to go to the consulate or 
the embassy to get a visa. He could have gotten on an airplane. 
If he wasn't on a terrorist watch list or a no-fly list, guess 
what? He flies into the United States of America to do what? 
This is a real issue with foreign fighters that are getting 
battle-hardened in Syria and now Iraq.
    We have got Iran continually to pursue a nuclear weapons 
program, Russia, the Crimea and Ukraine, Hezbollah, Hamas, what 
we see with the kidnapping of Israeli children by the 
Palestinian folks.
    We see Boko Haram in Libya and North Africa. What is going 
on in Egypt and the Sinai. China, the South China Sea, 
threatening Japan. Cybersecurity. China, Russia, North Korea. I 
could go on and on and on. There are a lot of problems going on 
in the world. That is why I think it is so important that DHS 
has a very, very, very clear message and plan in this report. 
So I will ask the witnesses a question.
    Frank, the QHSR, by statute, is supposed to not only be a 
comprehensive examination of the homeland security strategy of 
the Nation. It is also supposed to include recommendations 
regarding the long-term strategy and priorities of the Nation 
for homeland security. Part of long-term strategic planning 
requires anticipating future threats and events. So I ask you 
this: Is planning for unseen changes in the Western Hemisphere, 
such as in Mexico or Central America resulting in mass 
migration an issue that should be addressed in a National 
strategy? Was this issue adequately addressed in the newly-
released QHSR?
    Mr. Cilluffo. Mr. Chairman, I think you do hit an important 
question. At the end of the day, smuggling is smuggling is 
smuggling is smuggling; whether it is drugs, whether it is 
people, whether it is weapons they are gonna use the same 
route. So this is a significant area for the Department. I 
don't think it was addressed in as much detail as the threat 
warrants. Because at the end of the day, you are looking at the 
convergence of cartels meeting up with other actors. Obviously, 
that is a primary concern for not only border security but, as 
you mentioned, some of the P&R issues. The terror travel 
issues, more strategically where CBP, ICE, VISIT, TSA, and 
others play a significant role.
    I do think that the Department has made yeoman's progress 
in some of the terror travel-related issues. But to your point, 
it doesn't have to be via air. It can come through any kind of 
mode that the adversary chooses.
    So bottom line, I think that clearly that is a National 
security challenge. It is not just a--it does affect our 
National security, and something that warrants, I think, 
greater attention, going forward. Let me just underscore one 
thing. We can't wait 4 years for strategies. What we need to be 
able to do is identify what the goals are, what the objectives 
are in a long-term planning kind of sense.
    But you need a Department that is agile. I recommended an 
office of net assessment, along the lines of what DOD has, to 
be able to align some of these efforts. That has played a 
significant role in protecting our country from a defense 
perspective. I think DHS would be well-served if it had 
something that was nimble, agile, and doesn't have to wait 4 
years to put together a strategy, when the world changes so 
dramatically overnight. So we need to get to where we have the 
long-term goals, but we also need to get out tactics that are 
much quicker and much more rapid.
    Mr. Duncan. I agree with you. I think it should be a very 
fluid process. I am concerned that--and I had this conversation 
with staff this morning--that DHS was created, brought 22 
different components together. Have we created such a large 
agency--the third-largest in the Government--that it can't 
respond in that fluid manner? Responding to crisis as they come 
up, or needs, shifting assets, as needed. So I appreciate your 
saying that. We are gonna have several rounds of questions, I 
hope.
    With this, I will yield back--I will yield over to Mr. 
Barber for 5 minutes.
    Mr. Barber. Thank you, Mr. Chairman. It has been a very 
important discussion, especially as we are talking about the 
ability of the Department to be quick in response to emerging 
risks and problems. The drug cartels are very nimble. Their 
strategies change by the day, by the hour, by the week 
depending upon what they see us doing and where they see 
weaknesses in our border security structure.
    Mr. Baker, I would like to pursue this a little bit with 
you if I could. As you know, one of the QHSR strategic 
priorities is for the Department to adopt a risk segmentation 
approach to securing and managing the flows of people and goods 
into the United States. Last week, the House Committee on 
Homeland Security unanimously approved an authorization bill 
for CBP. In that discussion, I offered an amendment which was 
adopted by the committee requiring the commissioner of CBP to, 
within 6 months, develop and implement credible ways to measure 
border security and its effectiveness and its use of resources 
and allocations.
    We have, for way too long, had a lack of credibility of the 
information provided by the Department as to how it is doing. 
We have actually provided billions of dollars over the life of 
this Department, and we have way too little accountability.
    Two years ago, the Department moved to adopt a risk-based 
strategy for securing the borders. When the GAO, at the request 
of the Ranking Member and myself, looked at that it found a 
plan that was absent goals, absent measurements, no way to 
determine progress. The people that I represent have incredible 
information about the risks and the changing strategies of the 
cartels. I call the cartels narcoterrorists because I think it 
is a much more apt description of their goals and their 
practices.
    There is no doubt that we have made some improvements in 
securing the border. But I can tell you this. That where I 
live, the people I represent, they still are not safe in their 
homes, still don't feel that the Department has been quick 
enough. So how do we move in this direction?
    So, Mr. Baker, I want to ask you, as someone who has worked 
in the Department, what steps you believe the Department can 
take not just to talk about risk assessment and moving 
resources in accordance with that, but how it can actually 
affect that and begin to have better credibility with the 
stakeholders who live and work across the border?
    Mr. Baker. Thank you, Representative Barber. I am deeply 
familiar with this. Since I left the Department, I have worked 
closely with ranchers in exactly that area; very remote areas, 
where they are at risk every day from smugglers of drugs or 
people. They genuinely feel under siege. The--coming up with a 
measurement or a single measurement for success on the border 
and achievement of secure borders I think is almost impossible 
to do. Partly because while we can get a general sense, it is 
almost impossible to turn any of those measures into something 
that is the be-all and end-all.
    If you ask people today how many--like if you ask Border 
Patrol Agents how many people crossed the border or how many 
got away, how many did you catch, they will give you a pretty 
good estimate. But if you started making their bonuses depend 
on achieving those numbers, you would not be able to rely on 
those numbers for very long. My concern is, many of these 
numbers are subject, and ought to be subject, to exercise of 
judgment.
    The other problem that we are seeing today is, you can have 
a breakdown overnight if conditions change. I am quite struck 
by the fact that the crisis that we are facing now on the 
border is, in many ways, almost exactly the same crisis that I 
saw when I showed up in 2005 when we had people that were 
called, other than Mexicans, showing up and saying please give 
me the permiso and show me the way to the bus station. Because 
there was no way to return them--you couldn't return them to 
Mexico because Mexico wouldn't take them--and we did not have 
enough beds to put them into detention before they could be 
deported, we had to release them.
    Everybody was coming in greater and greater numbers when 
they realized that the worst thing that would happen to them is 
they would be given a date to show up, in 6 months, for a 
hearing. That is happening again. I think it would be 
worthwhile to look at the response that the Department took to 
that problem in 2005 and 2006, when we dramatically increased 
our ability to put people into detention and shrank, 
dramatically, the time it took to send them back home. So that 
they started to deliver the message, oh, you can take that long 
trip across Mexico but you will be back here in 2 weeks once 
you cross the border.
    If they believe that they will be allowed to stay in the 
United States indefinitely they will keep coming, and we will 
spend all our time just rounding them up and giving them 
permisos. Meanwhile, the drug cartels have already realized if 
they can send 250 people across the border who all have to be 
fingerprinted and sent to detention, as soon as the Border 
Patrol is engaged in that they can begin sending their 
backpackers across with the drugs.
    So I think this is a genuine crisis. It is a crisis of 
planning and management for the Department that needs to be 
addressed quite promptly or we will have serious, serious 
problems on the border.
    Mr. Barber. Thank you, Mr. Baker. Mr. Chairman, I have run 
out of time. I will yield back, and hope for questions in the 
second round.
    Thank you.
    Mr. Duncan. I thank the gentleman from Arizona. Mr. Baker, 
thank you for that, as well. Just a side comment. I think 
Mexico needs to be appealed to by this administration. It is 
their Southern Border with Guatemala that these folks are 
transiting, as well. They could be stopped there. Historically, 
Mexico has had a very, very strong policy of border crossings 
right there. But apparently, something--somewhere along the way 
something is not being done. Whether it is on the Guatemala and 
Mexico border, or whether it is on our border.
    So I yield to the gentleman, for 5 minutes, from North 
Carolina, Mr. Hudson.
    Mr. Hudson. Thanks, Mr. Chairman. Thank all the witnesses 
for your time here today. I thank the Chairman for having this 
hearing. This is really important.
    Mr. Baker, I want to start with you. In your written 
testimony, you addressed the delay of the QHSR by the 
Department of Justice and the near-veto power that Justice 
enjoys over this Department of Homeland Security product. In 
your time as assistant secretary for policy, did DOJ or any 
other Federal department enjoy this type of veto power? Are 
there any other departments--like Justice or Defense or State--
that have to obtain this kind of outside approval before they 
present their quadrennial report?
    Mr. Baker. If you let other agencies do that to you they 
will do it. When I first arrived at the--and we were standing 
up the Department's policy office, I handed out buttons that 
had the words ``lunch money'' and a big bar through it like a 
no-parking sign to say we were not gonna be giving our lunch 
money to other departments anymore. Maybe we should revive 
that. The Justice Department's effort to extract turf 
concessions from a document that needs to be released I think 
does not--what--it is not in the best traditions of the 
Department. But you have to resist or other departments will do 
that to you.
    Mr. Hudson. I appreciate that. I am just very concerned 
about that type of process, and I think there needs to be an 
independent report. Obviously, you know, departments can work 
together on issues and concern and cross-jurisdiction. But to 
have a report like this delayed, and to have another Department 
with near-veto power, I think that is a real mistake. So I 
appreciate----
    Mr. Baker. If I could tell one quick story? We had a very 
similar exercise like this when we were talking about nuclear 
terrorism. Where the FBI said, hey, we are in charge, we will 
do everything. Shortly thereafter we actually had an incident 
where a ship was coming with a cargo that had alarmed for 
plutonium. It turns out that it was not plutonium, but we 
thought seriously we had to send a helicopter out to 
investigate. We turned to the FBI and said, well, you said you 
were in charge. You got helicopters. They said, you know, 
actually we don't know how to land a helicopter on a ship. 
Could the Coast Guard do it for us?
    That is the difference between writing the speech where you 
say I am in charge, and actually carrying out the effort. Where 
the people who can do it end up with the responsibility. We 
need--the more we focus on what we are actually doing as 
opposed to the speech parts of this, the more likely we will 
have realistic assignments of responsibility.
    Mr. Hudson. Well, I think that is important. Because the 
American people expect us to keep them safe. If we are fighting 
over turf and, you know, whose helicopter are we gonna use, you 
know, that is a mistake. I think the American people have a 
right to be outraged and certainly, we have concerns here in 
Congress. We will continue to work on these issues. So I 
appreciate you highlighting that.
    Shifting gears a little bit, Mr. Cilluffo, at the time of 
the last QHSR, ISIS was a weakened al-Qaeda affiliate in Iraq. 
It has since become a major force, first in the on-going Syrian 
conflict and, more recently, in Iraq where it has taken on 
several key areas and is directly fighting with the government.
    Sort-of building on the theme that the Chairman raised, you 
know, did the QHSR mention this type of threat? If not, is ISIS 
a potential failure of the state of Iraq, and are other nation-
states a potential threat that DHS or QHSR should include in a 
National homeland security strategy?
    Mr. Cilluffo. That is--I think that is an excellent 
question. It comes to what I think is one of these interagency 
challenges and dilemmas. Because you can't look at this as a 
home game or an away game alone. I would argue that we have 
neglected some our away game activities in recent years. Which 
has provided the time and space for our enemies to exploit. But 
I would also argue that you have got to look at it as being 
inextricably interwoven. Here is where I think you have some of 
that breakdown.
    I think the Department does deserve credit in terms of the 
work it has done vis-a-vis terror travel. They have actually 
made significant progress. But as the Chairman had mentioned, 
you have also got foreign fighters by the thousands. In 
addition to the incident in Belgium, there was a big arrest 
yesterday with TATP in France where you do have a--and Syria 
connection. You do have a number of foreign fighters that can 
come to Europe and then go elsewhere. I mean, obviously, when 
you look at the highest concern in terms of threat, it is 
probably on European soil right now.
    But that also does bode significantly for the United 
States. The reason we did--we have done a number of studies on 
foreign fighters in 2009, 2010. The reason we did that was this 
particular case where the system was blinking very red in the 
United States. A fellow by the name of Najibullah Zazi, he had 
initially went over to Afghanistan to join up with the Taliban. 
He was intercepted by al-Qaeda, said you are of much greater 
value because you are familiar with the United States, you can 
move in the United States. We are gonna turn you around and you 
are gonna start targeting U.S. targets.
    In this case, he was going after the subways in New York. 
We had a couple of mix-ups in terms of being able to get there 
before the balloon went up, but we did and we did it 
successfully. So it is this foreign fighter. It is these 
individuals that can be identified, intercepted, and turned 
around. That is a big problem. When you look at ISIS today, I 
think what is most unique is that you have got young folks who 
are meeting who had never met before. So when we looked at AQAP 
in Yemen, they are largely people who had familiarity with 
Yemeni society.
    When you look at Somalia, it was largely American, first-, 
second-generation of Somali descent. When you looked at AfPak, 
same sort of situation, southeast Asian. What makes this 
different is, they are coming from everywhere. These are new 
networks. So you have got very significant, concerning bomb 
skills coming out of Yemen, for example, now meeting with 
others who are savvy in social media or other terrorist tactics 
that we need to be concerned about.
    So bottom line, I don't think we will ever be able to 
predict the future, since the end of the Cold War threat 
forecasting has made, is some cases, astrology look 
respectable.
    But I would also suggest that, in the words of Mark Twain, 
whereas history may not repeat itself it does tend to rhyme. I 
am not sure we are learning all of our lessons that we have 
learned the hard way. I think it is up to all of us to make 
sure that we try to push back as much as we can.
    Mr. Hudson. Very well put.
    Mr. Chairman, my time is expired so I will yield back to 
you.
    Mr. Duncan. I thank the gentleman from North Carolina.
    Talking about some of those issues, we just saw about 20 
Somalians leave Minnesota to travel. Whether they are going to 
Syria or Somalia, but they are going to be jihadists. You know, 
do they come back to the country? These are folks that had 
legal permanent status here.
    So I apologize earlier if I came across as angry, talking 
about the Southern Border. But you know what? By golly, I am 
angry. I am angry because I am an American and I believe in the 
sovereignty of our Nation. I am very chagrined--more than 
chagrined, angered--by what I see going on right now.
    Ms. Duke, I want to shift gears to you. DHS is the third-
largest Federal department, and they have got a vast mission. 
The Department has number of agencies, departments, 
directorates, offices, and programs. There are offices involved 
with the intelligence community. Others conduct research and 
development within the Federal Protective Service. They serve 
as uniform Federal building security. We got CBP and ICE that 
strive to protect this Nation's border, among other missions.
    So given the size of DHS and its broad responsibility and 
it is vast and, at times, contradictory missions, is it 
appropriate to expect a QHSR of approximately 100 pages to 
provide an accurate, comprehensive examination of the homeland 
security strategy for the Nation?
    Ms. Duke. Well, Mr. Chairman, I think when you use the term 
``comprehensive,'' no. I think the QHSR really is a start 
document, setting forth the missions in very broad categories. 
I think they are noncontroversial in large part because they 
are so broad. It is a motherhood and apple pie, I think 
everybody agrees. I think the key is gonna be moving that 
forward.
    I do think there is unity of mission. I think the mission 
set of the various components of DHS does overlap more than it 
is being executed today. Not completely.
    I think that moving forward in joint requirements and joint 
capabilities is key for two reasons. One is the efficiency, the 
dollars spent. Second is the effectiveness. I believe DHS was 
created to be a more effective deliverer of homeland security, 
and that integration of the mission is key to moving that 
forward. I think we will see a better alignment if we move 
towards those joint requirements and capabilities.
    Mr. Duncan. Well, speaking along that, it is sort-of silent 
on management issues. So how concerned shall we be that it is 
sort-of silent on those issues, and what management 
infrastructure needs to be put in place to effectively 
implement a DHS strategy?
    Ms. Duke. It is----
    Mr. Duncan. We talked about acquisition reform earlier, so 
we have covered that. But any other things.
    Ms. Duke. It is silent. I think No. 1 from a management is 
the unity of the leadership and the regular engagement of 
senior leadership, both at headquarters and the components, in 
running the Department. By running the Department, it is a 
250,000-person bureaucracy, and it needs to be run effectively. 
I think that is key. That is a tenet through the senior 
leadership council and the deputies group of the current 
Secretary's initiative. I think it is gonna be difficult to 
carry through on that because of schedules, but it has to 
happen. That will drive down the unity at a low level.
    The second is the joint requirements and capabilities, both 
from a technology perspective and moving towards less 
platforms, less technology. You know, how many airframes do we 
need, those type of issues. Then also moving towards joint 
operations. That is going to be difficult. It needs to be 
tackled, but you are not gonna get that without the unity of 
the leadership dedicated towards that joint-ness.
    Mr. Duncan. Right. Thank you for that.
    I want to ask Dr. Willis, in this current budgetary 
environment that we experience, we deal with every day up here 
on the Hill, what are some specific examples of how DHS could 
operate more efficiently with less? For example, are there any 
areas or components that could be reduced without threatening 
the homeland security mission?
    Mr. Willis. I think the answer to this comes back to--
picking up some of what Ms. Duke said--on joint-ness. We need 
to start looking at the different mission areas that the 
Department has to work on. Take them as a problem to be solved, 
not a component to do work. If we start looking at it that way, 
I think some of the places where there may be ways to improve, 
both effectiveness or increased efficiency could emerge. I 
think border security is one of those.
    We already have something like that for drug control. We 
have something called The Interdiction Committee, where ONDCP, 
Coast Guard and all--and others come together to figure out how 
are we gonna jointly use our assets together? We could use 
something like that on immigration, as well.
    Mr. Duncan. All right, thank you.
    Mr. Cilluffo, am I off-base when I talk about my concern 
over OTMs, people of Middle Eastern, Asian, African descent, 
transiting somehow to South America, Western Hemisphere and 
making their way across our Southern Border? I preface that by 
saying we saw the Quds Force operative called on the Southern 
Border, trying to come into this country using a Mexican drug 
cartel operative who happened to be a DEA agent. Trying to come 
across through some sort of drug nexus, cartel nexus, to come 
to this city to assassinate the ambassador from Saudi Arabia.
    That is a real example. But am I exacerbating that with a 
concern that foreign fighters may try to come, that Hezbollah 
is trying to come into the Western Hemisphere more, that Iran 
is continuing to send operatives into this hemisphere? That 
there is a possibility that with a porous border like with have 
that they could actually transit into the United States? Is 
this a concern we should have, or am I off-base?
    Mr. Cilluffo. You know, I actually testified on this issue 
before the subcommittee when Mr. McCaul was chairing it. I do 
feel that is a legitimate concern. Obviously, when you look at 
the numbers it is a small number business. But the reality is, 
is terrorism is a small numbers business. Small numbers can 
cause mass harm. So I do think it is a significant concern. I 
do think that our authorities at CBP and elsewhere are aware of 
this in DEA. But smuggling is smuggling.
    I don't care what it is. If they are getting in, they are 
gonna get in. I used to tell a very bad joke. If you want to 
smuggle in a tactical nuclear weapon just wrap it in a bale of 
marijuana. Because we are not doing all that well in terms of 
some of our drug enforcement. Now I think it has improved. I 
think the likelihood would be a little more significant if you 
were to bring in someone that looks entirely different. I am 
not meaning to be pejorative, but that is the way it would 
work.
    I think some of the cartels wouldn't necessarily risk 
bringing in someone if they have a sense that this is a real 
bad actor. But then again, you are assuming that this is a 
monolithic enterprise and it is not. It is decentralized. So I 
think the bottom line here is, is it is a concern. It is not a 
big numbers business. But again, small numbers can cause mass 
harm here, and I think that is what is important.
    Mr. Duncan. Yes.
    Mr. Cilluffo. If I could just underscore one thing. Because 
I do think the Department, and Secretary Johnson, in particular 
deserve some credit for that Unity of Effort memo. That really 
was powerful. If you do get to the joint-ness, he came from the 
Department of Defense, where you had joint planning, where you 
have a structure between OSD and the combatant commanders 
through various means. The Department, I think at Homeland 
Security, you don't really have a sense of what the office of 
the Secretary is.
    Elevate policy to an under secretary role. Get a joint 
operations planning kind of effort, a J-3 in the military 
sense. Get the under secretary for intelligence and analysis to 
be a true J-2 or an intelligence function more along the lines 
of the way that relates to the under secretary of defense of 
intelligence in DOD. I think there are some opportunities. I 
think the Secretary seems to be moving in the right direction. 
Is it captured in the QHSR? Not really, but I think if you 
align those two entities there is some opportunity there. I 
think Congress can keep their feet to the fire to make that 
happen.
    Mr. Duncan. Thank you for that. I will say that Secretary 
Johnson came and met with at least Republican Members of this 
committee yesterday for at least an hour. He was very engaging, 
and I am impressed. I would say I am a Jeh Johnson fan, and I 
think he is the right guy at the right time. We need to make 
sure he has got the right tools and the ability to do his job, 
given the immense challenges, all the list of things that--and 
that was just a partial list that I read earlier.
    The last thing I will say before I turn it over to Mr. 
Barber is, I grew up in the Cold War, where we were nation-
state versus nation-state. We were tracking tank and artillery 
movements and troop movements and posturing and positioning of 
troops. It is a different world today, where we are tracking 
individuals. If you think about that, we are trying to track 
single individuals who could commit an act of terror.
    Fly an airplane into a tower or commit a Boston-style 
bombing that still terrorizes this country and caused 
tremendous moral and morality and harm to this country. So it 
is a different world and the challenges are immense. When we 
talk about the foreign fighters and other things we have 
mentioned today, it really raises the hair on the back of my 
neck.
    So with that, I will turn it over to Mr. Barber for another 
line of questioning.
    Mr. Barber. Thank you again, Mr. Chairman. Let me talk a 
little bit about the morale issue. Because I think it is a 
central problem that the Department is facing as it is trying 
to carry out its mission. It will be, I think, a real problem 
in implementing the QHSR. Secretary Johnson came to this 
committee and made it real clear that this was going to be one 
his priorities: To improve employee morale. It is rightly a top 
priority for him. It is for us.
    Because improving employee morale means improving the 
effectiveness of the Department. A demoralized workforce cannot 
carry out a mission effectively. Let me be very specific about 
one area of concern that is very real to me and the people I 
represent. That is the work that is being done by the Border 
Patrol and the Customs Agents at our ports of entry.
    The Border Patrol Agents, every single day, work in the 
most rugged environments on the border in the Southwest that 
you could imagine. Around the next bend, around the next canyon 
could be armed cartel members. We have had incidents, of 
course, where our agents have been harmed in those 
circumstances. They are very courageous people. I think they 
are really doing their best, under very difficult 
circumstances, to do their job.
    The Customs Agents who work at the ports of entry also face 
dangers and frustration because we have tourists, we have fresh 
produce trucks, we have products that are made in the United 
States, shipped to Mexico for assembly, and brought back that 
wait in long lines--2\1/2\ hours is not unusual--at our ports 
of entry. That is also demoralizing--it has a demoralizing 
impact on those employees.
    So I guess my question really is, for those of you were 
within the Department at one time--and, Dr. Willis, can you 
describe from your experience and from your base of knowledge, 
what is it the Department is going to have to do to increase 
morale, particularly in the area I have talked about? Because 
without improved morale, as the Secretary has made a priority, 
we are simply not gonna get a better Department.
    So let me start, if I could, with Dr. Willis, and then the 
other panelists perhaps can make their comments, as well.
    Mr. Willis. I think this is a very important problem. It is 
not just the component you called out. If you look across 
morale, across the Department, the numbers are not where you 
would like to see them. The basic approaches to this come out 
of basic management, right? We need to give people a clear 
focus on what we are gonna do, and then we need to give them 
the tools to do it. I saw some things in the acquisition bill 
that were helping that, providing workforce training.
    In the case of the Border Patrol that you were talking 
about, in addition to facing hostile threats there has also 
been news about concern about use of force guidance. So these 
are two in tension. So we need to give them the training in 
policies to help them be able to do their job effectively. So I 
think those two things are key, and then I will ask my other 
panelists to help. But----
    Mr. Barber. Ms. Duke, could you respond?
    Ms. Duke. Yes. Well, up until the very end of my career I 
was a career civil servant. I will say, after spending a long 
time in the Department of Homeland Security they are some of 
the most passionate civil servants that I have ever encountered 
in my 28-year career. I commend them. I thank you for asking 
questions about them.
    I think, first of all, that passion could be turned into 
better morale, No. 1, by engagement. They have got to be 
engaged and valued. In terms of they know what needs to be 
done, and both their operations and their opinions and their 
vision has to be considered as we develop strategies.
    It cannot be top-down. It has to be bilateral in terms of 
those boots on the ground know what needs to happen. Combine 
that with the senior leadership perspective, and have an 
engaged workforce.
    I think second, in the Department of Homeland Security I 
think that civil servants--it is one of the few, if not the 
only Department where it is okay to criticize civil servants 
without merit in terms of just general their mission and their 
population. I think that leadership has to support their 
members and speak positively of them both internally and 
externally, where it is warranted.
    Make sure that the politics around homeland security are 
imposed on those mid- and junior-level civil servants. That the 
politics is managed by the politicians and the leadership in 
terms of supporting the day-to-day mission. That they are 
enabled and supported and valued for accomplishing that mission 
despite the swirl around the political issues.
    Mr. Barber. Before we go to other witnesses, I just want to 
comment on what you said, Ms. Duke. I absolutely believe that 
engaging the people who are on the ground is one of the most 
important things that any organization can do, not just the 
Department of Homeland Security. That simply is not happening 
to the degree it needs to.
    I think there is a fresh wind in the Department. The 
Secretary, I think, is really committed to improving morale, to 
transparency and accountability. He has already taken action 
that shows that he really means it.
    But let me just cite an example. It has been a while since 
I have talked about this, but it illustrates the point. When 
the SBInet project was launched several years ago, the contract 
with Boeing specifically prohibited agents on the ground from 
advising or commenting on how this project would go forward. I 
can't believe that that happened. It did, the project basically 
failed as a result, I think, of lack of input. I would also 
add, and reiterate what I said earlier, not just input from the 
agents and the Customs Agents on the ground, but also the 
people who live and work on the border.
    I get information from the ranchers, from the 
businesspeople, from the people in the cities that is, without 
doubt, some of the best information you could have about what 
is really going on.
    So I couldn't agree with you more. Obviously, management 
has to lead. But it can't lead unless it listens to the people 
it is leading. So Mr. Baker, Mr. Cilluffo, could you also 
comment on this issue, please?
    Mr. Baker. Sure. Clarity of mission and support for the 
mission is crucial. Knowing that what you are doing when you 
get up every day is something that is valued by the country and 
by your leadership is the critical start. Part of that is a 
responsibility of Americans. You know, the most likely Federal 
employee any American is going to interact with in his ordinary 
life is a DHS employee. It won't surprise you that Americans 
are pretty quick to criticize and make it personal.
    Really, we should be a little bit better as human beings 
about recognizing that the people we are dealing with are 
carrying out an important mission, even if it occasionally 
inconveniences us at the border, in the airport. We should all 
thank them more often than we do.
    Finally, and this is a little odd and I will say it because 
it was my experience at DHS. Sometimes a key to improving 
morale is to identify the people who are not doing the job and 
get rid of them. Nothing makes the people who are doing the job 
feel more valued than the recognition by management that some 
people are not and actually disciplining or removing them from 
the workforce. It is a real drag on morale if you believe that 
you don't actually have to do the job to keep the job.
    Mr. Cilluffo. Just very finally briefly, because I think it 
was covered exceedingly well by my fellow witnesses. But keep 
in mind, it is also part of the mission. They can never shut 
down. It is exhausting. We know, when you are dealing with law 
enforcement you know when you arrest someone and your prosecute 
someone. When you are overseas you kind of know when you have 
gained territory. Their mission is disproving double negatives. 
They can never shut down.
    So you have got an exhaustion factor that I think plays in 
there. Because you only recognize when something goes wrong in 
terms of the Department's mission. That is what we will all 
focus on.
    So do we need to improve our abilities to lessen the 
likelihood of things going wrong? Absolutely. But we need to 
also find ways to reward some of the good work that has been 
done. Part of that, I would suggest, it may be psychic income, 
it may be not in the same way we think, but visits. I don't 
know. When I was at the White House, President Bush would sit 
down and meet with my staff, who were then at the NAC--what is 
now the headquarters of the Department of Homeland Security.
    I could be wrong, but I am not sure how many times the 
President has visited DHS. Members of Congress can do more. 
Just go to the hall, start meeting with the folks. It sounds 
trivial, but it actually means a lot.
    Then ultimately, to your point, get to the boots on ground 
because that is where the action is. I would argue State and 
local. Homeland security is not a Federal issue alone, it is 
really about enabling some of our partners at the State and 
local level. I think there is a lot that can be done there.
    So part of it is politics, and I don't mean in a Republican 
or a Demo kind of sense. But there is the need to be able to 
know that the work they are doing is appreciated. There is the 
need to recognize that you only realize when something goes 
wrong that we can maybe try to get out there when we do have 
some successes along those lines. Get out there, kick the 
tires.
    Mr. Barber. Well, thank you.
    Mr. Chairman, let me just close with this comment. I 
couldn't agree more with all of you about what you say we need 
to do to improve morale. As simple as saying ``thank you.'' I 
have often traveled through some of our interior checkpoints 
because they are in my district. Without fail, I never identify 
myself. I say to the agent, ``Thank you for your service.'' 
They have this shocked look on their face. It is like no one 
ever says that. I mean, it is a tough job, and I think we need 
to be thankful.
    Also, we need to continue to reinforce what the Secretary 
is doing to improve accountability and transparency. When he 
came here and he said he was going to be more transparent, he 
followed through by releasing, for the first time, the use of 
force policy. Controversial decision, the right decision in my 
mind.
    He then released information about investigations involving 
agents. Again, controversial, but the right decision. The 
public has a right to know what is going on in this Department. 
The more it knows, I believe the more balanced it will be in 
praising the good things, of which there are many, and being 
clear about the things that don't work.
    Thank you, Mr. Chairman.
    Mr. Duncan. I thank the gentleman. I want to thank you 
panelists for reminding us that it is a 24/7/365 day job to 
protect this country. It can be exhausting. I can only imagine 
what our CBP and Immigration and Customs Enforcement and USCIS 
and all the other groups that are dealing with some of the 
issues that we talked about this morning are going through. So 
I want to just thank them for their service, on the record, 
here today. From Jeh Johnson all the way down to the guy that 
is standing at the border.
    And thank them. You know, Americans get frustrated when 
they go through the screening at the airport. I have been 
there. I will be there in a little while. I will look at the 
number of TSA agents, and wonder why things can't go quicker. 
Why we can't do things in a different manner.
    But I have got to temper my frustration, and understand 
that they are protecting this Nation, they are keeping me safe. 
I agree with Mr. Barber. I try to tell them, when I go through 
the airport, thank you for your service, thank you for what you 
are doing to keep us safe.
    I would encourage all Americans to remember that patience 
is the new sign of patriotism. Because we, as a Nation, need to 
be safe.
    So I want to thank the witnesses for their valuable 
testimony and the Members for their questions today. I thought 
it was very informative and insightful. The Members of the 
subcommittee may have some additional questions for the 
panelists, and we ask that you respond to those in writing.
    So without objection, the subcommittee will stand 
adjourned.
    [Whereupon, at 10:54 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Questions From Chairman Jeff Duncan for Stewart A. Baker
    Question 1. What are the potential resource implications for the 
Department of Homeland Security from implanting priorities in the 
latest Quadrennial Homeland Security Review Report?
    Answer. Response was not received at the time of publication.
    Question 2. In an era of likely flat budgets, to what extent will 
the Department of Homeland Security need to reduce funding in some 
mission areas to free up resources to implement priority areas such as 
biological threats and cybersecurity?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Bennie G. Thompson for Stewart A. Baker
    Question 1. Mr. Baker, policy has been organizationally challenged 
since the inception of DHS; in hindsight, what lessons or best 
practices do you have for management of the policy process and maturing 
the policy organization at the Department so that it ultimately 
produces actionable reports, guidance, and policy, as opposed to 
``think tank'' policies and guidance?
    Answer. Response was not received at the time of publication.
    Question 2. The QHSR specifically tasks the Department with 
assessing its organizational structure, including its ``management 
systems, budget and accounting systems, human resources systems, 
procurement systems, physical and technical infrastructure.'' This was 
not included in the QHSR. Please expand on why you believe the 
Department did not include these elements. Would doing so in a public 
document expose the country to risk?
    Answer. Response was not received at the time of publication.
    Question 3. The 9/11 Act requires the Department to conduct the 
QHSR every 4 years, consistent with the Presidential election. During 
the preparation of the first QHSR, the Department was simultaneously 
going through the process of an administration and political party 
change. This time, the administration and political party stayed the 
same. As a result, the Department has had an opportunity to prepare a 
QHSR during two different election outcomes. How could each outcome--
new administration and party and same--affect the QHSR process and 
should Congress reconsider the timing to the QHSR so that it does not 
occur during the same year as the Presidential election?
    Answer. Response was not received at the time of publication.
    Question 4. The purpose of the QHSR is to inform the budget. How 
could the Department mature the QHSR process so it will bear some 
relationship to the budget request?
    Answer. Response was not received at the time of publication.
    Question 5. When examining the statutory requirements for what 
should be included in the QHSR, with the evolution of time and the 
changing homeland security environment, are these still the best 
requirements, in your opinion, or should there be any legislative 
additions or deletions to the requirements?
    Answer. Response was not received at the time of publication.
    Question 6. Many of the documents submitted to DHS by stakeholders 
were not made public. In your opinion could the process have been more 
open and transparent?
    Answer. Response was not received at the time of publication.
    Question 7. The Secretary's Unity of Effort memo, in addition to 
the numerous cross-cutting strategies laid out in the QHSR, envisions a 
unified cohesive DHS; yet, its component agencies and high-level 
officials remain spread out in various offices across the National 
Capital Region. And yet, from some Members, there remains a lack of 
support for the consolidated headquarters at St. Elizabeths. How would 
a consolidated headquarters assist the Department in carrying out its 
mission? And do you believe that consolidating DHS's physical 
infrastructure supports the Secretary's Unity of Effort?
    Answer. Response was not received at the time of publication.
       Questions From Chairman Jeff Duncan for Frank J. Cilluffo
    Question 1. To what extent did DHS provide a clear strategy for 
securing cyberspace in the QHSR? Did the QHSR provide an opportunity to 
guide a coordinated cybersecurity effort across Federal departments or 
did it remain a DHS-focused strategy?
    Answer. Response was not received at the time of publication.
    Question 2. Given the increasing prevalence of nation-state-
supported cyber attacks and espionage, such as the recently indicted 
members of an elite Chinese military unit who targeted U.S. networks 
for the Chinese government, should the Departments of State and/or 
Defense have more of a role in cyber protection?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Bennie G. Thompson for Frank J. Cilluffo
    Question 1. The QHSR specifically tasks the Department with 
assessing its organizational structure, including its ``management 
systems, budget and accounting systems, human resources systems, 
procurement systems, physical and technical infrastructure.'' This was 
not included in the QHSR. Please expand on why you believe the 
Department did not include these elements. Would doing so in a public 
document expose the country to risk?
    Answer. Response was not received at the time of publication.
    Question 2. The 9/11 Act requires the Department to conduct the 
QHSR every 4 years, consistent with the Presidential election. During 
the preparation of the first QHSR, the Department was simultaneously 
going through the process of an administration and political party 
change. This time, the administration and political party stayed the 
same. As a result, the Department has had an opportunity to prepare a 
QHSR during two different election outcomes. How could each outcome--
new administration and party and same--affect the QHSR process and 
should Congress reconsider the timing to the QHSR so that it does not 
occur during the same year as the Presidential election?
    Answer. Response was not received at the time of publication.
    Question 3. The purpose of the QHSR is to inform the budget. How 
could the Department mature the QHSR process so it will bear some 
relationship to the budget request?
    Answer. Response was not received at the time of publication.
    Question 4. When examining the statutory requirements for what 
should be included in the QHSR, with the evolution of time and the 
changing homeland security environment, are these still the best 
requirements, in your opinion, or should there be any legislative 
additions or deletions to the requirements?
    Answer. Response was not received at the time of publication.
    Question 5. Many of the documents submitted to DHS by stakeholders 
were not made public. In your opinion could the process have been more 
open and transparent?
    Answer. Response was not received at the time of publication.
    Question 6. The Secretary's Unity of Effort memo, in addition to 
the numerous cross-cutting strategies laid out in the QHSR envisions a 
unified cohesive DHS; yet, its component agencies and high-level 
officials remain spread out in various offices across the National 
Capital Region. And yet, from some Members, there remains a lack of 
support for the consolidated headquarters at St. Elizabeths. How would 
a consolidated headquarters assist the Department in carrying out its 
mission? And do you believe that consolidating DHS's physical 
infrastructure supports the Secretary's Unity of Effort?
    Answer. Response was not received at the time of publication.
    Questions From Chairman Jeff Duncan for Henry H. Willis \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT412z1.html.
---------------------------------------------------------------------------
    Question 1a. Components, such as TSA and CBP, are ultimately 
responsible for implementing DHS's strategic plan. While the QHSR 
developed a strategic framework, it remains unclear to what extent 
these efforts are impacting specific programs and operations at the 
component level.
    Do you know of any component-level programs or operations that have 
changed, or been cancelled or initiated as a result of the prior QHSR 
or the current QHSR?
    Question 1b. To what extent have/will components adjust their own 
strategies to be in line with the QHSR?
    Answer. One of the results of the first QHSR was the recognition of 
the importance of having a valid National risk assessment. The methods 
for National risk assessment developed through the first QHSR were then 
applied in this second QHSR. However, as I stated in my testimony, the 
next challenge for DHS is to connect the strategic planning based on 
this assessment to decisions about budgets and program priorities. To 
this end, it is important that the Department complete the steps 
outlined in the Secretary's Unity of Effort memo that can implement 
budget processes and build the analytic capability that will allow 
components to adjust their own strategies and programs to be in line 
with the guidance in the second QHSR.
  Questions From Ranking Member Bennie G. Thompson for Henry H. Willis
    Question 1. The QHSR specifically tasks the Department with 
assessing its organizational structure, including its ``management 
systems, budget and accounting systems, human resources systems, 
procurement systems, physical and technical infrastructure.'' This was 
not included in the QHSR. Please expand on why you believe the 
Department did not include these elements. Would doing so in a public 
document expose the country to risk?
    Answer. I am not aware of the reasons why the Department decided 
not to address issues related to management more explicitly or in 
greater detail. I do not believe that doing so in a public document 
would have exposed the country to greater risk.
    Question 2. The 9/11 Act requires the Department to conduct the 
QHSR every 4 years, consistent with the Presidential election. During 
the preparation of the first QHSR, the Department was simultaneously 
going through the process of an administration and political party 
change. This time, the administration and political party stayed the 
same. As a result, the Department has had an opportunity to prepare a 
QHSR during two different election outcomes. How could each outcome--
new administration and party and same--affect the QHSR process and 
should Congress reconsider the timing to the QHSR so that it does not 
occur during the same year as the Presidential election?
    Answer. As indicated in this question, both the first and second 
QHSRs were required to be completed as new leadership stepped into DHS. 
This timing led to delays in the release of the reports and limited the 
utility of the reports to the Department leadership Congress as a tool 
for strategic planning and budgeting. The QHSR would be better timed if 
it were initiated when new leadership came aboard (rather than 
completed at that time) and was developed and released in coordination 
with the President's budget request, so that it could serve as 
strategic guidance for that request.
    Question 3. The purpose of the QHSR is to inform the budget. How 
could the Department mature the QHSR process so it will bear some 
relationship to the budget request?
    Answer. To reiterate a few points made in my written testimony and 
in the responses to questions above, there are two steps that could be 
taken to mature the QHSR process so that it will bear a relationship to 
the budget request. First, the Secretary's Unity of Effort memo 
identifies steps to implement budget processes and build analytic 
capability to connect budget decision making to the strategic guidance 
in the QHSR. Second, the QHSR would be a more effective strategic 
planning tool if it were scheduled to be initiated when new leadership 
comes on board at the Department and it was developed and released in 
coordination with the budget request.
    Question 4. When examining the statutory requirements for what 
should be included in the QHSR, with the evolution of time and the 
changing homeland security environment, are these still the best 
requirements, in your opinion, or should there be any legislative 
additions or deletions to the requirements?
    Answer. The statutory requirement for a QHSR reinforces the 
importance of strategic planning for DHS and the stated requirements 
are appropriate for such a review and remain relevant.
    Question 5. Many of the documents submitted to DHS by stakeholders 
were not made public. In your opinion could the process have been more 
open and transparent?
    Answer. I am supportive of greater transparency for the analysis 
and information to support strategic planning for homeland security. 
Ultimately, the effectiveness of DHS at countering terrorism, managing 
risks from disasters, and facilitating trade and travel depends on the 
ability of State and local governments, private companies, and non-
government organizations to contribute to making the Nation safer, more 
secure, and more prosperous. When these organizations have more 
information, they are in a better position to offer solutions.
    Question 6. The Secretary's Unity of Effort memo, in addition to 
the numerous cross-cutting strategies laid out in the QHSR envisions a 
unified cohesive DHS; yet, its component agencies and high-level 
officials remain spread out in various offices across the National 
Capital Region. And yet, from some Members, there remains a lack of 
support for the consolidated headquarters at St. Elizabeths. How would 
a consolidated headquarters assist the Department in carrying out its 
mission? And do you believe that consolidating DHS's physical 
infrastructure supports the Secretary's Unity of Effort?
    Answer. As mentioned in my testimony, the Secretary's Unity of 
Effort memo includes several steps that can improve the effectiveness 
and efficiency of the Department. I believe that close cooperation 
between the Secretary and Congress will greatly improve DHS's ability 
to implement these initiatives. I have not examined how consolidation 
of headquarters at St. Elizabeths would affect management of DHS. 
However, to the extent a convincing case can be made that a 
consolidated headquarters would improve management, it would deserve 
support by Congress.
        Questions From Honorable Jeff Duncan for Elaine C. Duke
    Question 1a. In your written testimony, you discuss the Secretary's 
``Unity of Effort'' and the necessity of meetings and engagement by the 
Secretary, deputy secretary, and the component heads.
    After 11 years of a Department more resembling a collection of 
independent components, how critical is Unity of Effort in protecting 
the Nation's homeland?
    Answer. The Unity of Effort is very critical to effectively 
executing the Department of Homeland Security's (DHS) mission to 
protect the Nation's homeland. The Unity of Effort will improve the 
effectiveness of mission operations. It will serve to close gaps in 
mission scope and delivery. It will position DHS to execute the 
missions of the Quadrennial Homeland Security Review (QHSR) more 
seamlessly, with better communications, and with integrated roles and 
responsibilities. It will position DHS to better understand the touch 
points between the components' unique missions and manage those 
integration points for better mission execution.
    Additionally, the Unity of Effort will improve the efficiency of 
DHS. It will drive efficient allocation of resources by eliminating 
redundancies in systems, services, and aligning missions. It will help 
position the business functions to more cohesively support mission 
execution in leadership, resource allocation, policy and governance, 
and performance measurement.
    Question 1b. What are the challenges to focusing the various 
component efforts on a unified DHS strategy versus an individual 
component approach?
    Answer. The challenges to focusing the various component efforts on 
a unified DSH strategy versus an individual component approach start 
with trust. Each component is passionate about its mission, and fears 
that joining with the other components may hinder its ability to meet 
its mission. That is one reason why the leadership councils formed 
under the Unity of Effort are so crucial. Trust must start with the 
most senior leaders. An additional challenge to a unified strategy is 
developing an optimal balance between constancy and flexibility. DHS 
must develop a unified, constant infrastructure to be efficient and 
consistent in delivery services and mission. Yet, it must maintain the 
flexibility to adapt to an evolving threat and be nimble and addressing 
the threats.
  Questions From Ranking Member Bennie G. Thompson for Elaine C. Duke
    Question 1. Ms. Duke, a section on Maturing Management was not 
included in the 2009 QHSR. To some extent; however, it was included in 
the subsequent Bottom-up Review. The current QHSR likewise did not 
include the requisite assessment of the Department's management 
functions. As you know, many aspects of the Department management 
functions remain on the Government Accountability Office High-Risk List 
and continue to pose a challenge for DHS. What should we, as Congress, 
look to for management issues from the QHSR since there will not be 
another Bottom-up Review? Should Congress consider mandating a 
``Bottom-up Review'' process that could be released on a quarterly 
basis as a companion to the QHSR?
    Answer. I believe continued oversight on the implementation of the 
Unity of Effort would yield more positive maturation and integration of 
management functions than another Bottom-Up Review. DHS has matured to 
the level that it has a relatively comprehensive understanding of the 
``as is'', related to its missions and how they are accomplished. The 
next step to maturity is the optimal unity of both management and 
mission delivery. I stress optimal because either maximizing or 
minimizing unity will not serve DHS or our Nation well. Rather than 
another look at the relatively consistent mission set, I recommend 
concentrating continued oversight on development and implementation of 
the Unity of Effort initiatives set for by Secretary Johnson, since 
they will provide the sustained progress toward executing the QHSR 
missions.
    Question 2. The QHSR specifically tasks the Department with 
assessing its organizational structure, including its ``management 
systems, budget and accounting systems, human resources systems, 
procurement systems, physical and technical infrastructure.'' This was 
not included in the QHSR. Please expand on why you believe the 
Department did not include these elements. Would doing so in a public 
document expose the country to risk?
    Answer. I do not know why DHS did not include the QHSR requirement 
to assess its organizational structure, including its ``management 
systems, budget and accounting systems, human resources systems, 
procurement systems, physical and technical infrastructure'' in the 
recent QHSR. DHS's efforts to date regarding this segment of the QHSR 
requirement are discussed at least in part in part in its reports to 
the General Accountability Office related to its High-Risk report on 
Management Integration. The management system is further defined in 
Secretary Johnson's Unity of Effort memo. The Unity of Effort, as 
proposed, will align mission and management into a more cohesive, 
integrated system. If executed, I believe it would improve our Nation's 
homeland security.
    Question 3. The 9/11 Act requires the Department to conduct the 
QHSR every 4 years, consistent with the Presidential election. During 
the preparation of the first QHSR, the Department was simultaneously 
going through the process of an administration and political party 
change. This time, the administration and political party stayed the 
same. As a result, the Department has had an opportunity to prepare a 
QHSR during two different election outcomes. How could each outcome--
new administration and party and same--affect the QHSR process and 
should Congress reconsider the timing to the QHSR so that it does not 
occur during the same year as the Presidential election?
    Answer. I believe that the majority of the DHS mission, at the 
strategic level, is not political. If you look at the mission sets in 
the recent QHSR, I think both new and old administrations and parties 
would believe they are the key missions, and the core of homeland 
security. There may be some political disparity when it comes to more 
detailed execution of those mission sets. For example, immigration 
enforcement, screening technologies and privacy implications, and 
border technology all may be executed differently depending on the 
administration and party in control of Congress. But I do think that 
there is danger in aligning DHS's main mission set to political events. 
The need to protect the homeland is a continuous, fairly constant 
requirement. I suggest a potential way to move forward would be to 
allow the QHSR to stay strategic and relatively politically neutral, 
done every 4 years, to provide the constancy of purpose to DHS. And 
then require a DHS strategic planning document, which provides more 
content on how those missions will be executed, at key events such as a 
new administration, or on a set periodic basis.
    Question 4. The purpose of the QHSR is to inform the budget. How 
could the Department mature the QHSR process so it will bear some 
relationship to the budget request?
    Answer. DHS could mature the QHSR so it would bear relationship to 
the budget request by including a section on the management of DHS, as 
currently required by the QSHR legislation. There is a danger in 
managing mission and management separately. Management only exists to 
enable mission, and mission can be most effectively delivered with good 
management. They are two pieces of a single puzzle, and setting a 
strategy for them individually sub-optimizes both. My recommendation is 
that in a future QHSR or similar document, the two are addressed 
simultaneously, with the mission outlining the ``what'' DHS will do, 
and the management section outlining the ``how'' DHS will do it, in 
terms of resource allocation (dollars and people), process, system, 
jointness, metrics, etc. I do believe the Secretary's Unity of Effort 
plan does address the QHSR requirement on management, and would 
ultimately ensure resources are appropriately, effectively, and 
efficiently aligned to mission priorities.
    Question 5. When examining the statutory requirements for what 
should be included in the QHSR, with the evolution of time and the 
changing homeland security environment, are these still the best 
requirements, in your opinion, or should there be any legislative 
additions or deletions to the requirements?
    Answer. I think the current QHSR language is comprehensive and 
appropriately strategic. I do not think the language of the mandate 
needs to be modified, only the actual report needs to be regularly 
updated (as required every 4 years) to adapt to the changing homeland 
security environment and threats.
    Question 6. Many of the documents submitted to DHS by stakeholders 
were not made public. In your opinion could the process have been more 
open and transparent?
    Answer. I believe DHS, and any department, should have some ability 
to go through some level of deliberations within itself. This is 
necessary for open and honest communications in the deliberative 
process. One way the process could be more transparent, if that is 
necessary, is to include a summary discussion of some of the trade-offs 
and alternatives, as part of the final report supporting documentation. 
This provides an open and transparent look at alternatives and 
decisions that had to be made, while appropriately protecting the 
deliberative process.
    Question 7. The Secretary's Unity of Effort memo, in addition to 
the numerous cross-cutting strategies laid out in the QHSR envisions a 
unified cohesive DHS; yet, its component agencies and high-level 
officials remain spread out in various offices across the National 
Capital Region. And yet, from some Members, there remains a lack of 
support for the consolidated headquarters at St. Elizabeths. How would 
a consolidated headquarters assist the Department in carrying out its 
mission? And do you believe that consolidating DHS's physical 
infrastructure supports the Secretary's Unity of Effort?
    Answer. The geographic dispersion of DHS's components throughout 
the NCR does hinder the speed at which DHS can build its unity. The 
lack of consolidated headquarters is detrimental for several reasons, 
most importantly the fact that DHS does not have a joint operations 
center from which the Secretary can run incident response in 
conjunction with his component heads. The multiple, independent 
component operations centers fuel autonomous operations and hinders 
jointness. Additionally, the lack of consolidated headquarters hinders 
DHS's ability to build a unified culture. Informal communications and 
professional relationship-building is difficult, and without the 
personal connections, trust, understanding, and cohesiveness are more 
difficult to establish. I do understand the investment for St. 
Elizabeths is substantial, and know that in the current budget 
situation funding the headquarters is of great concern for many 
parties. I think that the unity can be established with the current 
environment, but do think that it will take longer and may not be as 
complete of a unification as DHS would experience with a consolidated 
headquarters.
                                 <all>
</pre></body></html>
